FACTORS AFFECTING IMPLEMENTATION
    OF THE HOME AFFORDABLE
     MODIFICATION PROGRAM




                         SIGTARP-10-005
                          MARCH 25, 2010
                    SIGTARP                                   March 25, 2010

                    Office of the Special Inspector General   Factors Affecting Implementation of the Home Affordable
                    for the Troubled Asset Relief Program
                                                              Modification Program

Summary of Report: SIGTARP-10-005                             What SIGTARP Found
Why SIGTARP Did This Study                                    When HAMP was launched in the first few months of 2009, Treasury justified the
In response to millions of families potentially               program by stating that it would “help up to 3 to 4 million at-risk homeowners avoid
facing foreclosure in the next several years, on              foreclosure,” and that it would do so “by reducing monthly payments to sustainable
February 18, 2009, the President announced the                levels.” Notwithstanding this laudable aspiration that the program would actually help 3
Making Home Affordable (“MHA”) program to                     to 4 million homeowners avoid foreclosure, Treasury has stated its 3 to 4 million
assist struggling homeowners. As part of this effort,         homeowner goal is not tied to how many homeowners actually receive sustainable relief
on March 4, 2009, the U.S. Department of the                  and avoid foreclosure, but rather that 3 to 4 million homeowners will receive offers for a
Treasury (“Treasury”) announced the $75 billion               trial modification. Measuring trial modification offers, or even actual trial modifications,
Home Affordable Modification Program                          for that matter, is simply not particularly meaningful. The goal that should be developed
(“HAMP”) to assist homeowners by lowering their
                                                              and tracked is how many people are helped to avoid foreclosure and stay in their homes
monthly payments through mortgage
                                                              through permanent modifications. Transparency and accountability demand that
modifications. Of the $75 billion allocated for
HAMP, $50 billion comes from the Troubled Asset
                                                              Treasury establish goals that are meaningful, and that it report its progress in meeting
Relief Program (“TARP”) to modify privately-                  such meaningful goals on a monthly basis. Continuing to frame HAMP’s success around
owned mortgages. More than a year after                       the number of “offers” extended is simply not sufficient.
announcement of the program, disappointing
results have raised questions about program                   A year into the program, although more than a million trial modifications have been
effectiveness.                                                initiated, the number of permanent modifications thus far, 168,708, has been, even
                                                              according to Treasury, “disappointing.” One Treasury official’s current estimate for how
This report addresses (1) HAMP’s status and                   many permanent modifications will result from HAMP — 1.5 to 2 million over the
whether the program has met participation goals               course of the four-year program — may be only a small fraction of the total number of
thus far and (2) what challenges have confronted              foreclosures that will occur during that period. It is the current projected estimate of
and continue to confront Treasury in implementing             permanent modifications (and not Treasury’s still repeated 3 to 4 million figure) that
the program. To complete our audit, SIGTARP                   should inform the debate on whether HAMP is worth the resources being expended or
reviewed HAMP policies, procedures, and                       whether the program needs to be re-vamped to actually help more borrowers.
marketing materials of Treasury, Fannie Mae,
Freddie Mac, and a sample of five servicers                   There are several reasons that have been identified for the disappointing results:
performing modifications and interviewed officials            (a) program rules had not been fully developed by the time the program began, and
at those organizations. This audit focuses only on            Treasury has had to revise guidelines repeatedly, causing confusion and delay;
Treasury’s performance, and not that of the                   (b) Treasury’s decision to permit servicers to start trial modifications before receiving
servicers. Our work was performed in accordance               supporting documentation has been counterproductive, creating a large backlog of trial
with generally accepted government auditing
                                                              modifications, of which many will never become permanent; and (c) Treasury’s
standards.
                                                              marketing efforts thus far have been limited, with an inexplicable absence of its own
                                                              television public service announcements a year into the program.
What SIGTARP Recommends
SIGTARP recommends that Treasury (a)
                                                              Looking forward, even if HAMP results in the estimated 1.5 to 2 million permanent
prominently disclose its goals for how many
homeowners will actually be helped through
                                                              modifications, the program will not be a long-term success if large amounts of
permanent modifications and track performance                 borrowers simply re-default and end up facing foreclosure anyway. Several aspects of
against those goals; (b) set goals for other                  HAMP’s design make it particularly vulnerable to re-defaults. First, a borrower’s non-
performance metrics and report performance                    mortgage debts (which could prevent a homeowner from staying current on even
against those goals; (c) undertake a sustained                modified mortgage payments) are neither factored into the modified payment calculation
public service announcement campaign as soon as               nor will they exclude borrowers from participating in HAMP. Second, borrowers may be
possible both to reach additional borrowers that              unable to meet the increasing monthly payments if their income has not increased
could potentially be helped by the program and to             commensurate with the interest rate adjustments that begin once the five-year
arm the public with complete, accurate information            modification period is concluded. Third, even if borrowers receive a HAMP permanent
about the program; (d) reconsider its decision to             modification on their first lien, for the estimated 50 percent of at-risk borrowers, the
allow servicers to substitute alternative forms of            total monthly mortgage payments might still be unaffordable if the second lien is not
income verification; and (e) re-examine the                   also modified or extinguished; only recently has Treasury been able to sign up servicers
program’s structure to ensure that the program is             to Treasury’s second lien program. Finally, given the prevalence of negative equity in
adequately minimizing the risk of re-default.                 mortgages eligible for modification, re-defaults resulting from negative equity, including
                                                              strategic defaults, may be a factor as borrowers decide that it makes more economic
In commenting on a draft of this report, Treasury             sense for them to walk away from their mortgages notwithstanding the lower payments.
stated that it concurred with SIGTARP’s first three
recommendations and non-concurred with the last
two recommendations. A fuller discussion of
Treasury’s response is contained in the
Management Comments and Audit Response
section of this report.
                                                                   Special Inspector General for the Troubled Asset Relief Program
Table of Contents
Introduction                                                     1

The Number of Permanent Modifications Entered Into During        8
HAMP’s First Year Has Been Below Expectations

Several Issues Relating to HAMP Implementation Have Posed       18
Challenges to HAMP Participation, in Particular to Converting
Trial Modifications into Permanent Modifications

Conclusions and Recommendations                                 29

Management Comments and Audit Response                          35


Appendices
      A. Scope and Methodology                                  36

      B. HAMP Stakeholders                                      39

      C. Net Present Value Test Guidance                        42

      D. Acronyms                                               46

      E. Audit Team Members                                     47

      F. Treasury’s Comments                                    48
                FACTORS AFFECTING IMPLEMENTATION OF THE HOME
                AFFORDABLE MODIFICATION PROGRAM

                SIGTARP REPORT 10-005                         MARCH 25, 2010



Introduction
Home foreclosures can have a devastating impact not only on the families losing their homes, but
also on the communities affected and on mortgage lenders. Families can potentially face
economic challenges and homelessness after losing what is typically their most important asset
and investment; communities suffer from the downward drag on property values that vacant,
foreclosed-upon houses represent; and mortgage lenders and investors not only lose their receipt
of monthly house payments but are often left with the difficult choice of selling the home at fire
sale prices or incurring substantial maintenance expenses. Unfortunately, these negative effects
have been widely felt during the current financial crisis, with foreclosures in many areas of the
country reaching historic proportions. More than two million homeowners received foreclosure
filings in 2008; nearly 2.8 million homeowners received foreclosure filings in 2009, and millions
more are expected in 2010, with some estimates predicting that the number will eclipse the
already staggering 2009 number.

With the foreclosure crisis as background, Congress made foreclosure mitigation an express part
of the Emergency Economic Stabilization Act of 2008 (“EESA”), the statute that created the
Troubled Asset Relief Program (“TARP”). Among other things, preserving homeownership is
an explicit purpose of EESA, and “the need to help families keep their homes and to stabilize
communities” is one of the considerations that the Secretary of the Treasury must take into
consideration in exercising his authorities under EESA.

In February 2009, the United States Department of the Treasury (“Treasury”) announced several
home preservation initiatives under the broad Making Home Affordable (“MHA”) program,
including the Home Affordable Modification Program (“HAMP”). HAMP is a $75 billion
program that includes $50 billion from TARP for the modification of privately-owned mortgage
loans. More than a year has now passed since HAMP was announced, and this audit examines
the program’s status and limited successes thus far. This report is a review of the actions
Treasury has taken to implement HAMP and is not an audit of servicers. The information
garnered from our conversations with servicing officials was used as supplemental information
to further inform our assessment of HAMP’s status and challenges.




                                                1
Objectives
The objectives of this audit are to determine the status of HAMP and what challenges have been
faced in HAMP’s implementation. Specifically, we will answer the following questions:

   What is the status of HAMP, and has the program met its goals for participation thus far?

   What challenges have confronted and continue to confront Treasury in implementing the
   program?

SIGTARP will issue separate reports on HAMP’s internal controls and on servicers’ compliance
with Treasury’s net present value test, and will soon announce additional audit work on HAMP’s
compliance program.

For a discussion of the audit scope and methodology and a summary of prior coverage, see
Appendix A. For a description of HAMP stakeholders’ roles and responsibilities, see Appendix
B. For a description of how the HAMP net present value test model has changed over the course
of the program, see Appendix C. For definitions of acronyms used in this report, see Appendix
D. For a list of audit team members, see Appendix E. For management comments, see
Appendix F.


Background
HAMP is designed to encourage loan servicers to modify eligible mortgages so that the monthly
payments of homeowners who are currently in default or are in imminent risk of default will be
reduced to affordable levels. Loan servicers are not required to participate in the program, but
HAMP encourages servicers to make such modifications by sharing some of the costs associated
with the modification and by making incentive payments based upon successful modifications.
Once servicers sign a Servicer Participation Agreement, servicers are required to offer HAMP
modifications to all eligible borrowers.

Treasury signed fiscal agent agreements with the Federal National Mortgage Association
(“Fannie Mae”) and the Federal Home Loan Mortgage Corporation (“Freddie Mac”) to act as
Administrative Agent and Compliance Agent, respectively, for HAMP. In addition, Fannie Mae
and Freddie Mac are required to modify eligible mortgages that they own or guarantee. The
Administration estimated, at the time HAMP was announced in February 2009, that the cost to
Fannie Mae and Freddie Mac of modifications of loans they own or guarantee could be up to $25
billion.

Actual execution of the program lies in large part with participating mortgage servicers whose
employees are responsible for the offering and processing of modifications. As of the end of
January 2010, 110 servicers signed agreements to participate in the privately-owned mortgage
portion of HAMP with servicer success and performance varying. Other entities have additional
roles and responsibilities for implementing HAMP. See Appendix B for the key HAMP
stakeholders and descriptions of their roles and responsibilities.
                                               2
This background section briefly describes (a) HAMP’s eligibility requirements, (b) the basic
structure of how the terms of modifications are determined, (c) the incentive payment structure,
and (d) other programs that facilitate or operate in lieu of HAMP modifications.

HAMP Eligibility

One financial eligibility requirement under HAMP is that a borrower must either be in default of
his or her loan — 60 or more days late on their mortgage payments — or be at risk of imminent
default. Risk of imminent default is defined as a borrower who is current on his or her mortgage
payments, or is less than 60 days delinquent but faces the possibility of future default because of
a change in financial circumstances, such as through an interest rate reset, unemployment, or
some other reason that has made it difficult for the homeowner to continue meeting his or her
monthly payments at the existing level. In addition to meeting these criteria, a borrower’s
mortgage must meet other eligibility criteria to receive a HAMP modification on his first lien. 1
Table 1 lists the additional eligibility criteria. Mortgages that have been securitized 2 may require
modifications to be approved by investors and, as discussed briefly below, a separate program
has been initiated to deal with second liens. Although not an eligibility criterion, any foreclosure
action will be suspended during a trial period or during consideration for foreclosure alternatives.
Foreclosure may resume if a modification effort fails.

Table 1—Additional Criteria Used to Determine if a Mortgage is Eligible for a
HAMP Modification

    Origination Date            Mortgage must have originated on or before January 1, 2009.
    Qualification Terms         The home must be owner occupied and a single family 1-4 unit property with
                                a maximum unpaid principal balance of:
                                   • 1 unit – $729,750
                                   • 2 unit – $934,200
                                   • 3 unit - $1,129,250
                                   • 4 unit - $1,403,400
                                The home must be the borrower’s primary residence.
                                The home may not be investor-owned.
                                The home may not be vacant or condemned.
                                Borrowers in bankruptcy are not automatically eliminated from consideration.
                                Borrowers in active litigation regarding the mortgage may qualify without
                                waiving their legal rights.
Source: Home Affordable Modification Program Guidelines, March 4, 2009.


If a mortgage meets these eligibility criteria, the servicer will undertake a “net present value test”
to determine whether it will modify the mortgage, seek a foreclosure alternative, or pursue

1
  A lien is a form of security interest granted over an item of property to secure the payment of a debt or
  performance of some other obligation. The first lien takes priority over all other encumbrances over the same
  property.
2
  Securitization is a process where financial assets are packaged together into securities that are sold to investors. A
  mortgage pooling and servicing agreement describes how pooled loans will be serviced and dictates how proceeds
  and losses will be distributed among bondholders. Some agreements limit or prevent servicers from making
  modifications to mortgages. For a more detailed description of securitization, see SIGTARP’s April 21, 2009
  Quarterly Report to Congress, with the discussion beginning on page 92.

                                                             3
foreclosure. Several loan characteristics are input into Treasury’s net present value model, with
a resulting positive or negative numeric value. These inputs include the location of the home, the
value of the mortgage, the homeowner’s credit score, the homeowner’s front-end debt-to-income
ratio, and the loan’s delinquency status. Participating servicers are required to offer a HAMP
modification to a borrower qualifying for a modification based on the other program criteria if
the model generates a positive value, which indicates that it is economically advantageous to
modify the loan; i.e., the modification will cause less loss to the owner of the mortgage than
proceeding with foreclosure. 3

Modification Terms
Treasury made the decision, based on certain industry standards, that an affordable mortgage
would have a mortgage debt-to-income ratio of 31 percent, meaning that the total monthly
mortgage payment will be no more than 31 percent of the homeowner’s monthly gross income. If
a borrower meets the eligibility criteria and the net present value model yields a positive value,
the servicer follows HAMP’s “waterfall” (shown in table 2) in order to design a modification
that will result in a debt-to-income ratio of 31 percent. Servicers apply the modification steps in
the stated order until the borrower’s debt-to-income ratio is reduced as closely as possible to 31
percent without going below. 4


Table 2—HAMP’s Waterfall Steps

    Step One     Capitalize all outstanding interest, escrow advances, and third-party fees.

                 Late fees are to be waived for a borrower who satisfied conditions for a trial modification.
    Step Two     Reduce the mortgage interest rate in increments of 0.125 percent with a floor of two
                 percent.

                 If the loan is a fixed rate or adjustable-rate mortgage, the current interest rate is used as
                 starting point.

                 If the mortgage is a resetting adjustable-rate mortgage, the starting point will be the reset
                 interest rate.
    Step Three   The term of the mortgage can be extended to 480 months from the modification effective
                 date.

                 If the pooling and servicing agreement does not allow an extension, the mortgage may be
                 re-amortized based upon 480 months with a balloon payment due at maturity.

                 Negative amortization is prohibited after the effective date of the modification.
    Step Four    Provide non-interest bearing and non-amortizing principal forbearance.


3
  Loans that are owned or guaranteed by the government sponsored enterprises, on the other hand, are modified if
  the net present value model results are equal to or greater than a negative $5,000.
4
  Servicers are not precluded under HAMP from agreeing to a modification that reduces the borrower’s monthly
  mortgage payment ratio below 31 percent as long as the modification otherwise complies with the HAMP
  requirements. Similarly, and where permitted by the applicable servicing agreement or contract, servicers are not
  precluded from agreeing to a modification where the interest rate does not step up after five years, or where
  additional principal forbearance is substituted for extending the term as needed to achieve the target monthly
  mortgage payment ratio of 31 percent.

                                                         4
                   This forbearance amount will result in a balloon payment fully due upon maturity of the
                   loan, upon payoff of the interest bearing portion of loan, or the transfer of the property to
                   another party.

                   Principal forgiveness is not required under HAMP; however, servicers may forgive principal
                   to achieve the debt-to-income ratio goal of 31 percent on a standalone basis or before any
                   of the previous steps.

                   If principal is forgiven before step one through three, no subsequent step in the waterfall
                   may be skipped.

                   If the interest rate is not reduced after principal forgiveness, the existing rate will be fixed
                   and treated as the modified interest rate.
Source: Treasury, Supplemental Directive 09-01, April 6, 2009.




After April 15, 2010, borrowers who fully qualify for a modification and submit the required
documentation enter a trial period. Before then, trial modifications could be made without
documentation. The trial period lasts 90 days 5 and includes three modified mortgage payments,
but can last longer if necessary to comply with investor contractual obligations. If the borrower
is current at the end of the trial period and all documents have been received by the servicer, the
borrower will be offered a permanent modification.

Incentive Payments

To encourage participation in the program, Treasury pays incentives using TARP funds. First,
Treasury shares some of the economic cost of the modification. If a servicer makes
modifications to get a homeowner down to a 38 percent mortgage debt-to-income ratio, Treasury
will provide 50 percent of the costs of modification to get the loan from 38 percent to the target
31 percent debt-to-income ratio. Such payments are made once the modification becomes
permanent and lasts for up to five years or until the loan is paid off, whichever is earlier.

Second, Treasury makes incentive payments for successful modifications. These incentives are
targeted toward the three main participants in the mortgage modification process — the
homeowners who stay current on their mortgages after a modification, the mortgage servicers
who establish successful modifications, and the investors who own the mortgage loans. Table 3
describes incentive payments made for successful HAMP modifications.




5
    On August 26, 2009, Treasury announced a temporary waiver to allow an extension of up to two months for all
    trial periods so borrowers could submit all required documentation. A second two-month extension occurred on
    November 18, 2009, and then a third for one month with the conversion campaign detailed in Supplemental
    Directive 09-10 on December 23, 2009. This waiver was later amended to provide for an extension through
    December 31, 2009.

                                                                 5
Table 3—HAMP Incentive Payments

 Servicer Incentive          Servicers will receive an up-front incentive payment of $1,000 for each
 Payments and Pay            permanent modification. They will also receive pay for success payments —
 for Success Fees            as long as the borrower stays in the program — of up to $1,000 each year for
                             up to three years.
 Borrower Pay-for-           Borrowers are eligible to receive a pay-for-performance success payment that
 Performance                 goes straight towards reducing the principal balance on the mortgage loan as
 Success Payments            long as the borrower is current on his or her monthly payments. Borrowers
                             can receive up to $1,000 of success payments each year for up to five years.
 Current Borrower            One-time bonus incentive payments of $1,500 to investors and $500 to
 One-Time Bonus              servicers will be provided for modifications made while a borrower is still
 Incentive                   current on mortgage payments, but in danger of imminent default. The
                             servicer will be required to maintain records and documentation evidencing
                             that the trial period payment arrangements were agreed to while the borrower
                             was less than 30 days delinquent.
 Investor Incentives         This compensation equals one-half of the dollar difference between the
                             borrower’s monthly payment at 31 percent and the lesser of (i) what the
                             borrower’s monthly payment would be at a 38 percent; or (ii) the borrower’s
                             pre-modification monthly payment. This incentive lasts up to five years.
Note: No funds have been allocated for the borrower pay-for-performance success incentive as the required 12 months have not
      yet transpired since the first trial period started.

Source: Treasury, Home Affordable Modification Program Guidelines, March 4, 2009.




Complementary Programs

HAMP’s first lien program, described above, is just one of the programs under the broader MHA
efforts designed to assist struggling homeowners. Some of the other programs are designed to
work in conjunction with HAMP; others are intended to provide alternative forms of relief to
homeowners. These other programs are as follows:

   •    The Home Affordable Refinance Program is intended to provide access to low-cost
        refinancing for homeowners suffering from falling home prices and whose mortgages are
        owned or backed by Fannie Mae or Freddie Mac. Treasury does not administer the Home
        Affordable Refinance Program; the government-sponsored enterprises (“GSE”)
        administer the Home Affordable Refinance Program themselves, under the supervision of
        their regulator and conservator, the Federal Housing Finance Agency.

   •    The Second Lien Modification Program includes homeowner relief for those facing
        default or foreclosure with second mortgages. The program is intended to work within
        the framework of HAMP to offer a more complete relief package for homeowners with
        second liens. A homeowner cannot qualify for the Second Lien Modification Program
        unless his or her first loan has been modified under HAMP.

   •    The Home Price Decline Protection Incentives are intended to encourage additional
        investor participation and HAMP modifications in areas with recent price declines by

                                                             6
       providing additional payments to investors in areas that have suffered a decline in home
       prices.

   •   The Home Affordable Foreclosure Alternatives are intended to enable servicers and
       borrowers to pursue short sales and deeds-in-lieu of foreclosure for HAMP-eligible
       borrowers in cases where the borrower is unable or unwilling to modify his or her
       mortgage.

For more detailed descriptions of these programs, see SIGTARP’s July 2009 Quarterly Report to
Congress, pages 114-116; October 2009 Quarterly Report to Congress, page 97; and January
2010 Quarterly Report to Congress, page 98.




                                               7
The Number of Permanent Modifications
Entered Into During HAMP’s First Year Has
Been Below Expectations

This section addresses what Treasury’s participation goals for HAMP are and examines whether
those goals have been met during the program’s first year. The next section will examine the
challenges that have confronted and continue to confront Treasury in implementing HAMP.


Treasury states that its goal for HAMP is that the program will offer trial modifications to 3 to 4
million borrowers at risk from its inception through its expiration at the end of 2012. This
section first examines how Treasury has articulated its goals for HAMP and notes that Treasury’s
initial statements about the program indicated that HAMP was originally intended to result in 3
to 4 million permanent modifications — a level that simply will not be met absent an
unanticipated and dramatic increase in participation. Irrespective of how the goal is defined,
although Treasury has made progress in developing the administrative backbone of the program
and in getting the program started rapidly — meeting targets for servicer participation and a goal
for early trial modifications — the rate of permanent modifications thus far has been slow. From
HAMP’s inception through February 2010, only 168,708 mortgages have been permanently
modified. 6


Treasury’s HAMP Participation Goal
In its discussions with SIGTARP during the course of this audit, Treasury has insisted that its
participation goal for HAMP is — and has been from the program’s inception — that 3 to 4
million borrowers will be offered trial mortgage modifications over the four years of the
program. In other words, Treasury’s stated goal is not tied to how many borrowers are actually
helped by entering permanent modifications, but rather how many had the opportunity to enter
trial modifications by receiving offers.

What the anticipated benefits of a program are and how a program’s success or failure is defined
are important to provide a reference point for discussions about whether a program is worth the
resources devoted to it and whether the program is functioning as it should. An examination of
how Treasury has articulated its HAMP participation goal over time demonstrates that Treasury
has been less than consistent about how it has justified the program’s costs or defined what
success in the program would mean. Many of Treasury’s prior statements about the program


6
    Treasury reports 1,499 of the 170,207 permanent modifications started have been cancelled, resulting in 168,708
    active permanent modifications as of February 2010.

                                                           8
have strongly suggested that HAMP would result in 3 to 4 million permanent modifications, not
merely offers for trial modifications. For example:

       •   When the outlines of MHA and HAMP were developed in early 2009 by a working group
           of officials from Treasury, the Department of Housing and Urban Development (“HUD”)
           and the White House, they advocated that the refinance and modification programs
           should “have a scale that can have a real impact on turning the housing problems around
           in this country.”

       •   When HAMP was announced in February 2009, the Administration announced that the
           program’s goal was to “enable as many as 3 to 4 million homeowners to modify the terms
           of their mortgage to avoid foreclosure.”

       •   In a summary sheet describing HAMP guidelines released on March 4, 2009, Treasury
           stated that HAMP “will help up to 3 to 4 million at-risk homeowners avoid foreclosure
           by reducing monthly mortgage payments.”

       •   In its first supplemental directive concerning program guidelines, dated April 6, 2009,
           Treasury described HAMP as a “national modification program aimed at helping 3 to 4
           million at-risk homeowners — both those who are in default and those who are at
           imminent risk of default — by reducing monthly payments to sustainable levels.”

       •   Treasury’s Web site still states that HAMP was created as “a $75 billion loan
           modification program to help up to 4 million families avoid foreclosure.”

In sum, Treasury has repeatedly given the distinct impression that HAMP will help 3 to 4 million
homeowners actually avoid foreclosure by reducing their monthly mortgage payments to a level
that they can afford over the long term; those positive results can only occur with permanent
modifications. Although Treasury has, at times, noted that the goal was tied to offers and not
actual modifications, 7 in its discussions with SIGTARP in connection with this audit, Treasury
has conceded that its use of language in describing HAMP’s participation goals has been
“confusing” and that it has not been “crisp” in defining its goals. Although SIGTARP is
skeptical, as discussed below, about whether Treasury’s goal of giving offers for trial
modifications is a meaningful one, for purposes of this discussion at least, SIGTARP accepts
Treasury’s assertion that its goal has always been offers and not permanent modifications.




7
    In a March 4, 2009 MHA program description, Treasury stated that they were “creating a comprehensive stability
    initiative to offer reduced monthly payments for up to 3 to 4 million at-risk homeowners…” In testimony on July
    24, 2009, before the House Financial Services Committee, Treasury Secretary Geithner stated that “3 to 4 million
    homeowners will be offered trial loan modifications under the Administration’s program.” In testimony before the
    Congressional Oversight Panel on September 10, 2009, Treasury Secretary Geithner stated that HAMP was
    “designed to allow 3 to 4 million families the chance to stay in their homes.” The MHA Monthly Program Report,
    for October 2009 and each month thereafter, has stated that HAMP has a “goal of offering 3 to 4 million
    homeowners lower mortgage payments through a modification over three years.”

                                                           9
In any event, during the course of this audit, a Treasury official estimated that under HAMP a
total of approximately 3 million trial modifications will be initiated and between 1.5 and 2
million of those will become permanent modifications.


Status of Participation in HAMP
Treasury has made substantial progress during the year since the announcement of HAMP in
attaining servicer participation. HAMP goals were developed based on a projection that servicer
participation would be 90 percent as measured by coverage of all privately-owned mortgages. In
its first publicly available monthly HAMP status report, which covered activity through July
2009, Treasury reported that 38 servicers had signed agreements to modify mortgages, with
those servicers covering approximately 85 percent of eligible mortgage debt outstanding. By
January 2010, 110 servicers of privately-owned mortgages were participating in HAMP, with
approximately 89 percent of all potentially eligible mortgage debt outstanding covered by those
servicers. Servicer participation levels, therefore, are very close to projected levels.

The program’s experience of attaining borrower participation, however, has been mixed. The
first batch of servicers entered into agreements enabling them to start trial modifications in April
2009. Through July, Treasury reported there were 235,247 trial modifications, but Treasury
recognized that much more had to be done to help homeowners. In July, Treasury and HUD
took steps to accelerate this pace. On July 9, 2009, Treasury Secretary Geithner and HUD
Secretary Shaun Donovan wrote the Chief Executive Officers of participating servicers calling
upon them to redouble their efforts to increase staffing and improve borrower response times.
On July 28, 2009, Treasury, HUD and other government officials met with senior officials from
servicers participating in HAMP to discuss ways in which to accelerate the program. At that
meeting, three steps were announced to improve the program’s performance: (a) performance on
a servicer-by-servicer basis would be publicly reported, (b) performance metrics would be
developed, and (c) Freddie Mac, in its role as the program’s compliance agent, would take a
“second-look” at a sample population of modifications. At that time, it was also announced that
the Administration had instituted a goal to reach 500,000 trial modifications by November 1,
2009.

The goal of 500,000 trial modifications was met by early October; indeed, Treasury reported a
total of nearly 700,000 trial modifications by November 1, 2009. At the same time, however,
Treasury had not disclosed the number of permanent modifications in its monthly Servicer
Performance Report through November 1, 2009. The slow pace of conversions from trial to
permanent modifications prompted Treasury and HUD, in November 2009, to undertake a
“conversion drive.” According to public statements by Treasury, through that point, servicers
had “not done a good enough job of bringing people a permanent modification solution” and
needed “to do better.” 8 One Treasury official told the press that “some of the firms ought to be
embarrassed, and they will be.” The conversion drive included:



8
    For their part, servicers stated that a lack of guidance from Treasury and constantly changing program guidelines
    were challenges to implementing HAMP. These issues are discussed in more detail in the next section.

                                                           10
   •   public reporting of conversion rates by servicer
   •   regular communications with the servicers and reporting by the servicers on conversions
   •   the deployment of conversion “SWAT” teams to assist the largest servicers
   •   engagement with key state and local groups in an outreach campaign

During the conversion drive, Treasury identified approximately 375,000 of the nearly 700,000
borrowers in modifications were eligible to convert to permanent modifications by December 31,
2009. According to the Chief Homeownership Preservation Officer, of this group of borrowers,
approximately one-third was simply awaiting a decision from their servicers as to whether they
qualified for a permanent modification; about 37 percent had submitted some, but not all,
documents necessary; and more than 20 percent had submitted no documents at all to their
servicers.

Approximately 31,000 mortgages were moved into permanent modifications through November
2009; the total number of permanent modifications was approximately 66,000 through December
(a monthly increase of 35,000) and 116,000 through January 2010 (a monthly increase of
50,000). In total, through February 2010, approximately 1,000,000 cumulative mortgages were
actively in HAMP modifications (168,708 cumulative active permanent modifications and
835,194 cumulative active trial modifications). Figure 1 shows the number of cumulative trial
and permanent modifications completed through each month from July 2009 through February
2010.




                                              11
Figure 1—Growth in Active Modifications (Cumulative Data from July 2009
through February 2010)

              3,000,000




              2,500,000




              2,000,000




    Borrowers 1,500,000
                                                                                                                                                 Trial
                                                                                                                                                 Permanent



              1,000,000
                                                                                                            830,438          835,194
                                                                                             787,231
                                                                              697,026
                                                                 645,813

                                                   485,370
                500,000
                                      360,165
                          235,247                                                                                                      168,708
                                                                                                                     116,297
                                                                                    31,382             66,465
                                                         1,711        5,181

                     0
                            July‐09    August‐09   September‐09 October‐09    November‐09 December‐09           January‐10   February‐10

                                                                           Month

Notes: The permanent modification number for September includes all active permanent modification from program inception.
       Treasury reports 1,499 of the 170,207 permanent modifications started have been cancelled, resulting in 168,708 active
       permanent modifications as of February 2010.

Source: Treasury, Making Home Affordable Servicer Performance Reports, July 2009 through January 2010.




The Pace of Modifications Has Not Met Expectations Thus Far
Conversions from trial modifications to permanent modifications have been slow thus far: only
15 percent or 168,708 mortgages of the total 1,094,064 trial modifications started are still in
active permanent status. Monthly conversions to permanent status from October through
February have been 3,000; 26,000; 35,000; 50,000; and 52,000. 9 Unfortunately, a Treasury
official has indicated that even this modest pace of permanent modifications will not be
sustainable and that the number of cancellations will likely increase.



9
    There were nearly 2,000 conversions to permanent modification from the beginning of the program through the
     end of September 2009.

                                                                      12
Treasury faces two significant hurdles in converting the current substantial backlog of trial
modifications into permanent status. The first relates to verbal modifications. On or prior to
April 15, 2010, servicers are permitted to start a borrower’s trial modification with stated
income, or verbal financial information, which is inherently less reliable than documented
information. As of December 21, 2009, Treasury reported 18 HAMP servicers, including four of
the five largest HAMP servicers, had used stated income when determining initial HAMP
eligibility. This documentation is required to be collected before the trial modification ends.
One of the servicers SIGTARP visited expressed concern for the resulting “disproportionate time
and expense” required to narrow down those homeowners who will actually transition to a final
modification among those who received verbal trial modifications. Identifying and removing
from the program ineligible borrowers who already started trial modifications as a result of
inaccurate, verbal income information is an additional strain on a servicer’s already limited
resources. Although use of verbal financial information certainly helped Treasury meet its
interim target of achieving 500,000 trial modifications by November 2009; because of this
diversion of resources, allowing verbal modifications was arguably counterproductive to
attaining permanent modifications. 10 Treasury has since recognized the limits of relying on
unverified financial information before commencing trial modifications and issued a policy on
January 28, 2010, ending this practice for all trial periods initiated after April 15, 2010.
Although this tightening of the standards makes sense, it presumably will reduce the already
declining number of trial modifications coming into the system, providing further reason to
question whether the flow of trial modifications into the system is sufficient, as discussed below.

The second issue affecting conversion relates to when payments are due during the trial period.
On or prior to April 15, 2010, after the borrower makes the first trial modification payment
during the initial month in which the trial modification becomes effective, he or she has the full
length of the trial period to satisfy further trial payment requirements. The borrower can thus
make the remaining two payments (or three payments for borrowers at imminent risk of
defaulting) 11 on the last day of the final trial period month. As such, a borrower’s likelihood for
default is concealed during the trial period and borrowers may have an incentive to delay
entering into permanent modifications. About 25 percent of homeowners who received trial loan
modifications and were targeted for the conversion campaign failed to keep up with their new
reduced payments, and at least 93,750 borrowers have missed required payments. Accordingly,
the backlog of trial modifications may be heavily populated by homeowners who are unable or
unwilling to make the required trial modification payments but who have been able to forestall
foreclosure (and live effectively rent free) during the term of the trial modification. Several of
the servicers interviewed reported concerns about homeowners trying to game the system in this
fashion. Treasury changed these payment requirements so that after April 15, 2010, a borrower
must make monthly payments to be considered current.

In addition to potential problems in converting the backlog of trial modifications to permanent
modifications, recent data suggests that it might prove to be difficult to bring sufficient new trial
modifications into the program. Since October, new trial modifications have only averaged

10
   In providing recommendations on HAMP program design, SIGTARP warned against such reliance on unverified
   information. See SIGTARP’s Quarterly Report to Congress dated October 21, 2009, beginning on page 158.
11
   Non-defaulted borrowers facing a financial hardship are considered at imminent risk of defaulting. This category
   of borrowers has a four-month HAMP trial period.

                                                        13
about 96,000 per month (approximately 110,000 in November; 110,000 in December; 80,000 in
January; and 85,000 in February). It is clear, however, that a certain percentage of homeowners
who enter trial modifications will fall out of the program before successfully entering a
permanent modification due to, for example, re-default during the trial period. A Treasury
official estimated that 50 percent to 66 percent of trial modifications will become permanent, 12
and indeed, the Assistant Secretary for Financial Stability has testified before the Congressional
Oversight Panel that past experience would suggest that a 50 percent conversion rate would be
the minimum expected and that a 75 percent conversion rate would make it “quite a successful
program.”

Figure 2 shows monthly borrower participation in both trial and permanent modifications since
August 2009.


Figure 2—Modifications Started Per Month (Non-Cumulative Data for August 2009
through February 2010)

                               180000



                               160000



                               140000



                               120000
     Number of Modifications




                               100000

                                                                                                                  Trial Modifications  Started per  Month

                               80000
                                                                                                                  Increase in Active Permanent  Modifications  per 
                                                                                                                  Month


                               60000



                               40000



                               20000



                                   0
                                        August   September   October   November   December   January   February

                                                                        Month

Note: Treasury issued its first publicly-available monthly HAMP status report — Making Home Affordable Servicer Performance
      Report — in August 2009.

Source: Treasury, Making Home Affordable Servicer Performance Reports, July 2009 through February 2010.

12
     During the audit, a Treasury official estimated that there will be a total of 3 million trial modifications, of which
     1.5 to 2 million will convert to permanent modification status.

                                                                                        14
Other Factors That Could Impede HAMP’s Long-Term Success
Before discussing HAMP implementation issues in more detail, other factors that could impede
HAMP’s long-term success, irrespective of whether Treasury’s articulation of its intended goals,
should be noted. These issues are discussed briefly below.

     •   Re-defaults – In the modeling it conducted in connection with HAMP, Treasury used a
         40 percent re-default rate. In other words, Treasury has estimated that, for every 10
         mortgages that enter into HAMP modifications (trial and permanent), four of those
         homeowners will re-default and potentially be in danger of losing their homes to
         foreclosure over the five years of the modifications. 13 It is still too early to determine the
         impact of re-defaults on the program’s success or whether Treasury’s estimates are
         accurate, and SIGTARP will continue to monitor this critically important issue.

     •   Limitations on debt-to-income eligibility ratio – HAMP uses an affordability ratio that
         excludes other factors that would normally be accounted for in traditional loan
         underwriting, thereby potentially overestimating the true ability of the borrowers to
         repay, which in turn will impact their ability to make modified payments in either a trial
         or a permanent modification. HAMP servicers use a monthly “front-end” debt-to-income
         eligibility ratio of 31 percent, consistent with a Federal Housing Administration
         underwriting guideline. In using this front-end calculation, the only debt HAMP
         servicers consider is mortgage debt 14 — the borrower’s other debts (e.g., car payments,
         student loans, credit card obligations, and second liens on the home) are not factored into
         the front-end debt-to-income calculation. Although the Federal Housing Administration
         uses a 31 percent front-end debt-to-income ratio when underwriting mortgages, it also
         requires lenders to consider the total debt-to-income ratio when determining whether a
         borrower qualifies for a mortgage. Both ratios must be below a designated threshold in
         order for the borrower to demonstrate his or her ability to make timely mortgage
         payments. In contrast, although HAMP servicers are required to calculate the borrower’s
         total debt-to-income ratio, high total ratios will not exclude borrowers from participating
         in HAMP. Instead, borrowers with total debt-to-income ratios greater than or equal to 55
         percent must simply sign a statement that they will work with an HUD-approved
         counselor. As a result, many HAMP participants have their monthly mortgage debt
         reduced but still have a debt-to-income ratio that may be far too high for them to be able
         to afford to continue to make monthly mortgage payments, even at the HAMP-reduced
         amounts, thereby increasing their likelihood to re-default. As of December 2009,
         borrowers with total debt-to-income ratios greater than 50 percent represented more than
         half of HAMP permanent modifications. Thirty-two percent of all borrowers holding
         HAMP permanent modifications had total debt-to-income ratios greater than 70 percent.
         This problem is exacerbated, of course, by the unacceptably high unemployment rates,
13
   When a borrower re-defaults during a trial modification, he is still responsible for the difference between the
   original payments and the modified payments made during the trial modification period.
14
   Mortgage debt is defined as principal, interest, taxes, insurance, and homeowners’/condominium association fees
   for HAMP purposes. This excludes second lien mortgage debt.

                                                        15
         which will potentially increase household debt and could have a dramatic impact on re-
         default rates.

     •   Five-year period of permanent modifications – HAMP’s permanent modification is
         designed to last for five years. Treasury based the five year period on “analysis used to
         determine a reasonable time frame for price recovery, including review of future prices, a
         statistical analysis of the steepness of actual price declines, consideration of broader
         macroeconomic forecasts, experiences of other modification programs, and judgment.”
         Unlike a traditional fixed-rate mortgage, if the interest rate on a HAMP modification is
         adjusted to below prevailing market rates, after the five-year fixed period, the rate can
         incrementally increase by up to one percent per year, capped at the 30-year conforming
         fixed rate 15 on the day the modification agreement is drafted. Borrowers, however, may
         be unable to meet the increasing monthly payments once the interest rate begins to
         increase if the borrower’s income has not increased commensurate with the interest rate
         adjustments, a situation that led to widespread defaults for sub-prime adjustable rate
         mortgages during the current financial crisis. Using the HAMP average unpaid principal
         balance of $247,149 (as of November 2009) and average remaining term of 327 months,
         a borrower with a two percent modification interest rate will face a monthly payment that
         is 23 percent higher in the fourth year after the permanent modification period if the rate
         is incrementally increased by one percentage point annually. However, current
         projections suggest that salaries may not increase by a corresponding rate.

     •   Second liens – Treasury has estimated that up to 50 percent of mortgages at risk of
         delinquency and foreclosure are backed by second liens. Although borrowers may
         receive a HAMP permanent modification on their first lien, the total monthly mortgage
         payment might still be unaffordable if the second lien is not modified or extinguished.
         Under the second lien program, when a borrower’s first lien is modified under HAMP
         and the servicer of the second lien is a HAMP participant, 16 that servicer must offer
         either to modify the borrower’s second lien according to a defined protocol or to accept a
         lump sum payment from Treasury in exchange for full extinguishment of the second lien.
         The second lien program follows a standard waterfall similar to HAMP’s first lien
         program. Servicers can begin immediately to modify or extinguish loans under the
         second lien program, once they sign Servicer Participation Agreements to participate in
         the program. The second lien program has not been fully implemented, although it was
         announced in April 2009 and designed to work in tandem with HAMP. Participation to
         date has been extremely limited, but with the recent signing of Bank of America, Wells
         Fargo, and JPMorgan Chase, it is improving.

     •   Negative equity and strategic defaults – Negative equity results when more is owed on
         a property than the property is worth. HAMP does not require servicers to address

15
   This rate represents the fixed interest rate on a 30-year loan that has a principal balance less than the maximum
   principal amount of mortgage which Fannie Mae and Freddie Mac can purchase, sell, and securitize. For
   example, a mortgage that was modified on January 7, 2010, would be capped at 5.09 percent.
16
   A servicer must execute a Servicer Participation Agreement or amend and restate an existing Servicer
   Participation Agreement previously executed for HAMP to participate in the HAMP Second Lien Modification
   Program.

                                                          16
        negative equity, 17 which an industry expert has called the “most important predictor of
        default.” It is estimated that homeowners who have negative equity (currently
        constituting about 25 percent of all borrowers nationwide) represent almost half of all
        foreclosures. During the course of our audit work, SIGTARP was not able to obtain
        documentation to support the different estimates as to the weighted average of the
        combined mortgage loan amounts 18 compared to the home’s value for all borrowers in
        HAMP trial modifications, but the numbers all indicate that the average HAMP mortgage
        is underwater. For example, Fannie Mae reported to SIGTARP that the ratio was 247
        percent through November 2009, which Treasury has “corrected” to 140 percent.
        Treasury currently estimates that the ratio is 114 percent.

             o The primary method of quickly addressing negative equity is through principal
               reductions. However, Treasury Secretary Geithner testified during the December
               10, 2009 Congressional Oversight Panel hearing that Treasury made a “conscious
               choice . . . not to start [HAMP] with principal reductions.” He stated it was
               determined that principal reductions were “more expensive for taxpayers,”
               “harder to justify,” and had a higher “risk of unfairness.” Principal reduction is a
               long-term means of making payments affordable, but can pose moral hazard. 19 In
               this context, borrowers who are current on their mortgages may consciously
               choose to stop paying their mortgage if they are aware that delinquent borrowers
               receive incentives and financial assistance under HAMP.

             o The practice of a borrower choosing to default on the mortgage, even when he or
               she can afford the payments, is called strategic default. Strategic default usually
               occurs when the home’s value is substantially lower than the mortgage value.
               Although relatively common in commercial real estate, it has been widely
               reported that homeowners may be increasingly more likely to strategically default
               on their homes. Given the amount of negative equity in the mortgages under trial
               modifications, strategic default may become a factor in HAMP re-defaults, as
               borrowers decide that it makes more economic sense for them to walk away from
               their mortgages, and rent at a lower cost, rather than continue to make higher
               payments that may never result in them obtaining equity in their mortgage.


17
   HAMP allows principal reduction, but it is not typically implemented in practice. Servicers forgave principal on
   less than two percent of HAMP trial loans. Before HAMP, 10 percent of servicer-sponsored modifications
   forgave principal. Rather than forgiving principal, HAMP primarily reduces monthly payments through interest
   rate reductions, amortization term extensions, and principal forbearance. On February 19, 2010, however, the
   Administration announced a new initiative to help the housing markets that have experienced 20 percent or more
   average home price decreases. The program allocates $1.5 billion of TARP funds for a limited number of states’
   housing finance agencies to address housing priorities in the local markets. The state agencies will submit
   proposals to Treasury for approval before Treasury funds the programs. The proposals may include measures for
   unemployed homeowners, assistance to borrowers owing more than their home is now worth, help to address
   challenges arising from second mortgages, or other programs encouraging sustainable and affordable
   homeownership. Until the states submit proposals, it is unclear whether any or all of the programs will include
   the items discussed above.
18
   Combined loan-to-value ratio compares the value of all outstanding mortgages on the home to the home’s value.
19
   Moral hazard occurs when someone insulated against a risk (such as in the context of a government bailout
   program) may behave differently than if they bore the full risk.

                                                        17
Several Issues Relating to HAMP
Implementation Have Posed Challenges to
HAMP Participation, in Particular to Converting
Trial Modifications into Permanent
Modifications

This section describes how Treasury has implemented HAMP and some of the program
challenges that have been encountered.


When HAMP was announced in February 2009, Treasury committed to implement the program
rapidly, with Treasury Secretary Geithner stating that HAMP would work at an “extraordinarily
rapid pace for a program.” As promised, the program was rolled out quickly, with initial
program guidelines released in March 2009 and the first agreements with servicers being
executed in April. In July, Treasury also placed pressure on servicers to move more quickly and
instituted a goal of 500,000 trial modifications by November. Although that goal was met, by
November it became clear that the pace of conversions from trial modifications to permanent
modifications was slower than expected, and Treasury’s Assistant Secretary for Financial
Stability stated that the department was “disappointed in the permanent modification results thus
far.” Treasury has blamed servicers for this disappointing result; servicers have blamed
Treasury’s implementation; and both have blamed homeowners for failing to comply with
documentation requirements.


Steps Treasury Took to Implement HAMP
Treasury attempted to get HAMP running rapidly. President Obama announced the Homeowner
Affordability and Stability Plan, of which HAMP was a major component, on February 18, 2009.
Fourteen days later, the Administration and Treasury released what they called “detailed
requirements” that they indicated would equip servicers with the information necessary to begin
modifying mortgages. Fifteen days after that, Treasury launched the Making Home Affordable
Web site, an online resource intended to educate borrowers about HAMP. On April 6, 2009,
Treasury issued its first supplemental directive containing additional guidance to servicers for
implementation of HAMP for privately-owned mortgages. One week later, on April 13, 2009,




                                               18
the first six servicers signed servicer participation agreements, making them eligible to modify
loans under HAMP. 20

In July, Treasury took a series of steps to accelerate the pace of HAMP participation.

     •   On July 9, 2009, Treasury Secretary Geithner and HUD Secretary Donovan wrote the
         Chief Executive Officers of participating servicers calling upon them to redouble their
         efforts to increase staffing, improve borrower response times and streamline the
         application process.

     •   On July 28, 2009, Treasury, HUD and other government officials met with senior
         officials from servicers participating in HAMP to discuss ways in which to accelerate the
         program and bring relief to homeowners faster. At that meeting, steps were announced to
         improve the program’s performance, including reporting on performance on a servicer-
         by-servicer basis, the development of performance metrics, and that Freddie Mac, in its
         role as the program’s compliance agent, would take a “second-look” at a sample of
         modifications.

     •   The Administration announced a goal to reach 500,000 trial modifications by November
         1, 2009.

The goal of 500,000 trial modifications was met by early October. By then, however, it was
becoming clear that the rate of conversion from trial modifications to permanent modifications
was very slow. Through the end of October, there were more than 650,000 active trial
modifications, but Treasury had not disclosed the number of permanent modifications in its
monthly Servicer Performance Report through November 1, 2009.

The slow pace of conversions from trial modifications to permanent modifications prompted
Treasury and HUD to undertake a “conversion drive” in November 2009. According to public
statements by Treasury, servicers had, up to that point, “not done a good enough job of bringing
people a permanent modification solution” and needed “to do better.” 21 The conversion drive
included similar measures as in the earlier drive to increase trial modifications, including putting
pressure on the servicers by making results public. The initial announcement included:

     •   publicly reporting conversion rates by servicer
     •   regular communications with the servicers and reporting by the servicers on conversions
     •   the deployment of conversion “SWAT” teams to assist the largest servicers
     •   engagement with key state and local groups in an outreach campaign

20
   Beginning in April and May of 2009, Treasury attempted to expand homeowner relief and increase modification
   affordability programs that were complementary to HAMP or that provided alternative relief, announcing the
   Second Lien Modification Program, foreclosure alternatives such as deed-in-lieu and short sale, and the Home
   Price Decline Protection Incentive. It took Treasury another three months until it announced program details,
   however, and another five months after that until the first servicer signed a contract to participate in the Second
   Lien Modification Program in late January 2010.
21
   For their part, servicers stated that a lack of guidance from Treasury and constantly changing program guidelines
   were challenges to implementing HAMP.

                                                          19
On January 28, 2010, Treasury announced that it would require servicers to obtain verifiable
income documentation prior to trial modification, beginning with borrowers entering trial
modifications after April 15, 2010.

Figure 3 is a timeline of several key HAMP implementation milestones from the announcement
of the program through February 2010.


Figure 3—Key HAMP Implementation Milestones (February 18, 2009 through
February 2010)




Source: SIGTARP analysis of Treasury Press Releases and Supplemental Directives.




                                                           20
Difficulties Encountered in Implementing HAMP

Although the reasons for the disappointing results thus far are many, discussions with Treasury,
the GSEs, and the servicers, and an analysis of performance data have identified several specific
issues concerning HAMP implementation that have posed particular challenges.


Changing Documentation Requirements

Receiving required documentation from borrowers has been a significant challenge in moving
trial modifications into permanent status. Treasury has identified this as a significant challenge,
and servicers have reported difficulties in obtaining borrowers’ income documentation. These
views have been borne out by the data. Of the 375,000 trial modifications targeted for
conversion in November, a majority had incomplete documentation and 20 percent had supplied
no documentation at all.

Treasury has changed the standards for what documents are required and whether trial
modifications can be entered into before such documentation is provided since the program was
rolled out. Table 4 tracks the changes in what documents have been required for borrowers to
verify income.


Table 4—Changes in HAMP Income Documentation Requirements

Date       Change Description                      Documentation Requirements and Changes
3/4/2009   Treasury’s initial program guidelines        •    Signed Form 4506-T
           stated that a servicer may accept            •    Two most recent paystubs for wage earners, and other third
           either documented or verbal income                party document of reasonable reliability for self-employed
           from the borrower to determine               •    Representation that the borrower does not have sufficient liquid
           whether a borrower is eligible for a              assets to make monthly payments
           trial modification.                          •    Obtaining most recent tax return on file
4/6/2009   Supplemental Directive 09-01            If borrower is employed:
           provided additional detail as to what        •    A signed copy of most recently filed federal tax return
           kinds of documentation would be              •    A signed Form 4506-T
           deemed sufficient before                     •    Copies of two most recent paystubs indicating year-to-date
           conversion to a permanent                         earnings
           modification.                                •    A letter from a reliable third party for all bonuses, commissions,
                                                             fees, housing allowances, tips and overtime.
                                                   If self-employed:
                                                        •    A signed copy of most recently filed federal tax return
                                                        •    A signed Form 4506-T
                                                        •    Most recent quarterly year-to-date profit/loss statement
                                                        •    Other third party reliable documentation voluntarily provided
                                                   If borrower uses alimony or child support:
                                                        •    Photocopy of divorce decree or other legal written assignment
                                                             providing for payment of alimony, and documentation of
                                                             payment. Servicers must determine that income will continue
                                                             for three years.
                                                   If borrower uses benefit income (such as social security):

                                                        21
                                                       •    Documentation showing amount of benefit, frequency and
                                                            duration (must continue for three years).
                                                        •   Must obtain copies of signed federal tax returns, W-2 forms or
                                                            copies of two most recent bank statements.
                                                   If borrower receives public assistance or unemployment:
                                                        •   Documentation showing amount, frequency and duration.
                                                            Servicers must determine the income will continue for nine
                                                            months.
                                                   If borrower uses Rental income:
                                                        •   Signed Federal income tax returns including Schedule E,
                                                            supplemental income and loss. This income will be counted at
                                                            75 percent.
7/6/2009    Treasury’s Supplemental Directive      Same documentation requirements as Supplemental Directive 09-01, but
            09-03 announced that the servicer      borrower may be put into trial period without the executed copy of the trial
            should begin trial modification        period plan.
            period reporting once the servicer
            receives the borrower’s first trial
            period payment regardless of
            whether the servicer has received
            an executed copy of the trial period
            plan.
10/8/2009   Treasury’s Supplemental Directive      Servicers can still put a borrower into a trial period with stated income,
            09-07 represents an ongoing effort     but the income documentation collection now includes:
            to improve process efficiency by            •    Signed Form 4506-T
            updating the borrower underwriting          •    Those in imminent default may, in accordance with investor
            requirements by permitting                       guidelines, be required to provide the most recent signed copy
            “alternative” forms of income                    of their federal income taxes. All other borrowers may, but are
            verification before conversion to a              not required to submit.
            permanent modification and                  •    Copies of two most recent paystubs with year-to-date earnings
            introducing revised model              If self-employed:
            documentation for the program.              •    The most recent quarterly or year-to-date profit and loss
                                                             statement
                                                   If borrower earns “other” income:
                                                        •    Reliable third party documentation describing nature of income
                                                   If borrower uses alimony, separation maintenance, or child support
                                                   income:
                                                        •    Copy of divorce decree, or other legal written assignment
                                                             providing for payment of alimony or child support and duration of
                                                             payment.
                                                        •    Evidence of receipt of payment, such as bank statements with
                                                             amount of payment
                                                   If borrower receives public assistance or unemployment:
                                                        •    Evidence of amount, frequency and duration of the benefits,
                                                             which must continue for nine months.
                                                   If borrower uses rental income:
                                                        •    Signed Federal income tax returns including Schedule E,
                                                             supplemental income and loss. This income will be counted at
                                                             75 percent.
                                                   If borrower uses benefit income (such as social security):
                                                        •    Evidence of amount and frequency of benefit
                                                        •    Evidence of receipt of payment
                                                   All passive and non-wage income (including rental, part-time
                                                   employment, bonus/tip, investment and benefit income) does not have to
                                                   be documented if borrower declares the income and it constitutes less
                                                   than 20 percent of total income.
1/28/2010   Treasury’s Supplemental Directive      A servicer may only evaluate a borrower for HAMP after it receives:
            10-01 requires full verification of    Request for Modification and Affidavit Form, Form 4506-T or 4506T-EZ
            borrower eligibility after April 15,   and evidence of income, including:
            2010, including documented                  •    Copies of two recent paystubs which do not have to be
            verification of income, prior to                 consecutive.
            offering a trial period plan.               •    The most recent quarterly or year-to-date profit and loss

                                                           22
                                                               statement for self employed
                                                           •   Reliable third party documentation describing nature of income
                                                               for all bonuses, commissions, fees, housing allowances, tips
                                                               and overtime.
                                                     If borrower earns benefit income (such as social security):
                                                          •    Evidence of amount and frequency of benefit
                                                          •    Receipt of payment, such as bank statements showing deposit
                                                               amounts.
                                                     If borrower receives unemployment:
                                                          •    Evidence of amount, frequency and duration of the benefits,
                                                               which must continue for nine months.
                                                     If borrower uses Rental income:
                                                          •    Signed Federal income tax returns which include Schedule E,
                                                               supplemental income and loss. This income will be counted at
                                                               75 percent.
                                                     If borrower uses alimony, separation maintenance, and child support
                                                     income:
                                                          •    Copy of divorce decree, or other legal written assignment
                                                               providing for payment of alimony or child support and duration of
                                                               payment.
                                                          •    Evidence of receipt of payment, such as bank statements with
                                                               amount of payment
                                                     All passive and non-wage income (including rental, part-time
                                                     employment, bonus/tip, investment and benefit income) does not have to
                                                     be documented if borrower declares income and it constitutes less than
                                                     20 percent of total income.

                                                     Non-borrower income voluntarily provided may be included if the servicer
                                                     decides the income can be relied upon to continue.
                                                     The directive permits servicers to substitute their “business judgment” in
                                                     determining the forms of verification necessary to convert a trial
                                                     modification to permanent status.
Source: SIGTARP analysis of Treasury program guidelines.




All five of the servicers interviewed in connection with this audit have identified problems of
one sort or another that they have experienced due to repeated changes in program guidelines.
One servicer in particular noted that it changed from offering only fully documented trial
modifications to verbal modifications after Treasury threatened to make examples of servicers
with low trial modification numbers. 22 Servicers have reported, among other things, that:

       •   repeated changes to program guidelines have made it difficult for servicers’ operators to
           keep up with program rules;
       •   verbal modifications have allowed borrowers to obtain trial modifications due to
           misrepresentations, and identifying borrowers who have misrepresented their eligibility is
           difficult and resource intensive; and
       •   borrowers might be gaming the system by withholding required documents, (and thereby
           avoiding to have to make payments until the end of the trial period and still avoid
           foreclosure), and that some borrowers might be withholding documents to avoid
           disclosing misrepresentations on their original loan applications.

22
     Other servicers have noted issues relating to Treasury’s drive in July 2009 to increase the rate of trial
     modifications. One servicer found the meeting on July 28, 2009, as not helpful and just a forum for Treasury to
     tout publicly its goal of 500,000 modifications. Another complained that several servicers were made examples of
     for the sake of providing a certain public perspective about Treasury’s oversight of the program.

                                                               23
On balance, although Treasury’s attempt to increase HAMP participation in July was certainly a
laudable goal, Treasury’s decision to permit trial modifications without documentation appears
to have been made in error, and the diversion of resources it has created appears to have slowed
the conversions to permanent modifications. Apparently recognizing this error Treasury has
changed the rule requiring full documentation in advance of trial modifications initiated after
April 15, 2010.


Repeated Changes and Clarifications in Net Present Value Models

Repeated changes in the net present value test methodology have also caused confusion and
delay in implementing HAMP. As described above, after determining that a loan meets basic
eligibility requirements, a servicer will undertake a net present value test to determine whether it
is economically advantageous to the investor for the loan to be modified rather than allowing the
loan to continue to foreclosure. Several loan characteristics are input to Treasury’s net present
value model, with a resulting positive or negative numeric value. These inputs include but are
not limited to the location of the home, value of mortgage, homeowner’s credit score, front-end
debt-to-income ratio, and delinquency status. The HAMP program provides a net present value
model on the www.hmpadmin.com portal that is available for servicers to use to evaluate loans
for modification. According to Treasury, the portal net present value model is automatically
updated to reflect data and program changes and requires no servicer support.

Since HAMP’s initial roll-out, Treasury has issued changes or clarified model policies for the net
present value methodology several times. Indeed, since the model parameters were first released
on March 4, 2009, Treasury has issued changes or clarifications to the model nine times: April
6, 2009; June 11, 2009; July 9, 2009; July 31, 2009; August 7, 2009; September 11, 2009;
November 3, 2009; November 10, 2009; and January 28, 2010. Thus far, according to Treasury,
there have been three different formal versions of the model. 23 Appendix C contains a chart
describing these changes and clarifications in the net present value methodology.

All five of the servicers interviewed in connection with this audit identified significant issues
with the net present value modeling and in particular with the multiple changes over time in the
model. 24 Issues identified included: problems in accessing the model at all, particularly early in
the process; problems in getting documentation concerning the model; errors in the model;
insufficient time to incorporate changes into the model for servicers not using Treasury’s online
version of the model; a lack of guidance and confusion with respect to retroactive application of
changes to the model; and inconsistencies between the model code and the written guidance.
One servicer opined that the problems and changes to the net present value test effectively
doubled the effort needed to administer the test. Another stated that Treasury’s failure to provide
guidance on net present value issues resulted in delays in initiating trial modifications and
negative public scrutiny due to such delays.


23
     In commenting on a draft of this report, Fannie Mae stated there have been four model versions.
24
     Large servicers — those with a book exceeding $40 billion — may customize the base model to use modeled
     default rates that reflect their own portfolio experience.

                                                        24
Guidance on Other HAMP Implementation Issues

All five HAMP servicers visited by SIGTARP during this audit mentioned that they did not have
clear guidance from Treasury on identifying and determining eligibility for borrowers at
imminent risk of defaulting on their privately-owned mortgages. Treasury’s frequently asked
questions regarding HAMP, published on its administrative Web site for servicers (updated on
January 8, 2010) stated that “no additional guidance is being provided at this time with respect to
determining whether a non-GSE [or privately-owned] loan is in imminent default under HAMP.”
Treasury has advised servicers that they may, but are not required to use GSE guidance 25 on
borrowers at risk of imminent default on their privately-owned mortgages for HAMP. However,
without consistent and clear standards, it is possible that servicers will apply inconsistent criteria
for modifying mortgages of borrowers at imminent risk of default on privately-owned mortgages
or may even exclude borrowers who would otherwise qualify if the guidance were available.

Indeed, it has been widely reported that servicers have told borrowers that they must be
delinquent to be eligible for HAMP, which is simply untrue, the whole concept of imminent
default presumes that the borrower is current on his payments. Similarly, only two of the five
servicers visited by SIGTARP reported that they had integrated Hope for Homeowners as an
option for borrowers. 26 HAMP requires servicers to consider borrowers for the Hope for
Homeowners refinance program as they offer modification solutions to borrowers. One of the
servicers stated that Treasury promised additional details on how to integrate Hope for
Homeowners but the information was still forthcoming. Without providing guidance on how to
integrate Hope for Homeowners, borrowers may encounter inconsistent experiences based on
their servicer and, in some cases, may not be offered a program that would assist them.


Servicer Capacity and Training Issues

Traditionally, the primary role of a servicer is to collect monthly mortgage payments and to
foreclose on properties when such payments are missed. In HAMP, in addition to collecting
monthly mortgage payments, servicers now must train personnel to follow the program
guidelines in determining a borrower’s eligibility, execute the program’s modification waterfall,
run the latest version of the net present value model, and verify income. Indeed, the servicers
reported rapid increases in their staffing levels. These new personnel also needed training to
implement HAMP, which likely increased the lead time to offer HAMP modifications. As an
example, one servicer had not completed formal training as of our September 2009 visit, with the

25
   On January 26, 2010, Freddie Mac issued updated guidance for servicers with respect to the income
   documentation and verification requirements for borrowers with Freddie Mac mortgages who must be evaluated
   for imminent default. Fannie Mae instructed its servicers on February 1, 2010, to use Freddie Mac’s tool to
   identify imminent default borrowers with Fannie Mae mortgages. Imminent default borrowers will now be
   screened by the GSEs when they are current or less than 60 days delinquent to align with privately-owned
   mortgages under Treasury’s HAMP guidelines.
26
   The Economic and Housing Recovery Act of 2008 authorized HUD to implement the Hope for Homeowners
   Program, which gives banks and homeowners the option to ward off foreclosure by refinancing their at risk
   mortgages into 30-or 40-year fixed mortgages. The program was announced October 1, 2008, and ends
   September 30, 2011.

                                                      25
servicer indicating staff was not scheduled to attend training until the month following our visit.
It is important for personnel to have the proper training to reinforce consistency in the execution
of those modifications. Despite the importance to the program’s success, all five servicers
interviewed by SIGTARP in connection with the audit reported that they had received no formal
guidance from Treasury on how to train their personnel to handle HAMP modification requests.

Beyond difficulties in properly training personnel, handling the ever changing documentation
requirements also challenged servicers’ capacity to handle borrower inquiries and applications.
One servicer reported that HAMP’s quick roll-out forced it to rely on a vendor to coordinate the
tracking of borrower documentation upon receipt. Officials said the handling between vendor
employees and servicer employees had caused inconsistencies in storage procedures, resulting in
the loss of borrower documentation, a problem that has been widely reported. Another servicer
called capacity to process modifications a “key constraint.”


Issues Relating to HAMP Marketing Efforts

To date, Treasury has used three primary methods to market HAMP to the public: an
informational Web site, community outreach events, and a telephone hotline.

   •   According to Treasury, its largest outreach effort is the Making Home Affordable Web
       site, www.makinghomeaffordable.gov. Launched in March 2009, the Web site provides
       a centralized online resource for borrowers to learn about HAMP. The site includes,
       among other things, a tool for borrowers to help them determine whether or not they are
       eligible for HAMP, a loan look-up feature, which helps borrowers determine whether or
       not their loans are owned by GSEs, and a listing of the documentation needed to apply
       for a modification. Treasury also recently added video guides and other tools to assist in
       converting more trial modifications to permanent status.

   •   Treasury participates in community outreach events, with events taking place thus far in
       23 U.S. cities hit hardest by foreclosures. The events provide for face-to-face interaction
       among borrowers, servicers and housing counselors.  

   •   Treasury, through the help of Fannie Mae, provides a telephone resource, the
       Homeowner’s HOPE Hotline. Fannie Mae officials approached the non-profit
       Homeownership Preservation Foundation to operate a 24 hours-a-day, seven days-a-week
       MHA informational hotline, available in English, Spanish, and other languages upon
       request. The Homeownership Preservation Foundation assumed this role for the
       Homeowner’s HOPE Hotline in May 2009 and, as of the end of February, has recorded
       more than 800,000 calls, for which 95 percent related to HAMP. 

As program administrator, Fannie Mae has provided an outreach toolkit with sample marketing
materials on a Web site available to participating servicers (those which have signed a Servicer
Participation Agreement). Treasury officials pointed to the toolkit as HAMP marketing
guidelines and said they also provided the materials to members of Congress for provision to
their constituents. 

                                                26
Notwithstanding these efforts, each of the five servicers we visited indicated more guidance was
needed to develop HAMP marketing materials to better inform the public about HAMP. There
was lack of a consistent message that resulted in confusion among some borrowers. Based on
the servicer interviews, interviews of Treasury and GSE officials, and a review of program
materials, SIGTARP has identified several limitations in the HAMP marketing and outreach
efforts thus far.

       •   Performance metrics are limited. Although Treasury does count the use of the
           marketing efforts it does make — by tracking hits to its website, how many people come
           to its outreach events, and how many calls to its hotline — Treasury thus far has not tried
           to comprehensively gauge whether HAMP information is reaching its target audience
           (homeowners in trouble) effectively. As a result, it is impossible to gauge the effects of
           these efforts because Treasury has not developed a comprehensive way, through focus
           groups or more wide-ranging surveys beyond its outreach events, for example, to
           measure whether its efforts have been successful.

       •   Treasury’s efforts to use mass media advertising have been delayed and will not
           begin until at least April 2010. It has taken Treasury more than a year to develop its
           own public service announcements 27 for television, the medium with arguably the best
           chance of reaching the broadest audience. After a series of delays, the first such
           broadcast media spots are not scheduled to occur until at least April, a year after
           modifications could begin. Putting aside whether there are homeowners who could have
           been helped had knowledge of HAMP been broader, the lack of basic understanding
           about the program has sown confusion. For example, one servicer reported that its
           operators repeatedly had to deal with the fact that many borrowers believed that the
           program was available to everyone. If Treasury were to launch its own public service
           announcement, it would also provide a broad opportunity to educate the public about
           foreclosure rescue scams. SIGTARP recognizes that Treasury’s Web site and borrower
           outreach events present warning information regarding this type of fraud. However,
           SIGTARP alone has opened more than two dozen investigations into this type of
           fraudulent behavior, and television public service announcements could better educate
           the public of the dangers of these frauds.

       •   Treasury is not providing oversight of servicers’ marketing and outreach efforts.
           Treasury does not collect any information regarding servicers’ marketing efforts. It also
           cannot ensure the integrity of information disseminated to the public about HAMP, as
           officials do not conduct oversight of HAMP marketing materials and say they have no
           plans to do so in the future. An official at Treasury’s Homeownership Preservation
           Office told us the office is not monitoring the marketing or methods servicers use to
           solicit borrowers and inform them about HAMP. Moreover, the official told us Treasury
           does not intend to monitor HAMP materials disseminated by servicers in the future,
           including content on servicers’ Web sites. According to Treasury’s Homeownership
           Preservation Office, it does not view marketing inconsistency or content variation as a
27
     Treasury stated it incorporated references to the Homeowners’ HOPE Hotline and the MHA website into an
     existing NeighborWorks America video, which was distributed in December by the Ad Council.

                                                        27
           problem that warrants oversight efforts. But, as of November 4, 2009, less than half of
           the participating servicers’ Web sites contained information specific to HAMP, 28 only a
           little more than one third of the servicers’ websites provided a link to the Making Home
           Affordable Web site, and only 15 provided borrowers warning information about
           foreclosure rescue scams.




28
     At the time of our analysis on November 4, 2009, 71 servicers had signed HAMP servicer participation
     agreements.

                                                          28
Conclusions and Recommendations
Any examination of whether a government program is being implemented successfully must
have in mind, at least as an initial frame of reference, what the stated purpose of the program was
and whether the agency’s goals for the program are being met. Unfortunately, in the case of
HAMP, even this starting point is less than straightforward.

When HAMP was launched in the first few months of 2009, Treasury justified the program by
stating that the program would “help up to 3 to 4 million at-risk homeowners avoid foreclosure,”
and that it would do so “by reducing monthly payments to sustainable levels.” Notwithstanding
this laudable aspiration that the program would actually help 3 to 4 million homeowners avoid
foreclosure, Treasury has stated that the 3 to 4 million homeowner goal is not tied to how many
homeowners actually receive sustainable relief and avoid foreclosure, but rather that 3 to 4
million homeowners will receive offers for a trial modification. Treasury’s focus on how many
offers are given out for trial modifications — without setting goals for how many of those offers
result in trial modifications or how many of the resulting trial modifications become permanent
and thus actually attain the aspiration of helping homeowners avoid foreclosure and stay in their
homes for a meaningful period of time — raises issues for how the program was justified and
how Treasury is now measuring its progress.

First, defining success by how many offers are given can reasonably be perceived as essentially
meaningless. As an extreme example, Treasury could reach, even exceed, its goal with only
assisting few homeowners: if offers were given to four million at-risk homeowners, but only a
very few accept that offer — because the homeowner is hopelessly underwater, because even the
reduced payments are unaffordable, because the homeowner does not understand the terms well
enough to take action, or for any other reason — few would be helped and the program would be
an abject failure, despite meeting Treasury’s stated goal. To be meaningful, Treasury’s goal for
HAMP must relate to how many people are helped to avoid foreclosure; because offers standing
alone do not actually assist homeowners, it is simply not a useful measure.

Second, even if Treasury’s goal were construed to measure how many trial modifications were
started, that measure too would not be terribly illuminating. Experience thus far has shown that a
substantial number of homeowners entering trial modifications never convert to permanent
modifications, and a Treasury official informed SIGTARP that it is expected that only 50 percent
to 66 percent of the estimated three million trial modifications will convert to permanent status.
Although borrowers in trial modifications delay foreclosure and enjoy lowered monthly
payments during the several months of the trial period, those benefits go away (and the
difference between the original payment amount and the reduced trial payment amount is still
owed) if the borrower fails to progress to a permanent modification. Indeed, there is an
argument to be made that borrowers who enter trial modifications who do not get permanent
modifications are actually harmed by the program because they end up making several additional
mortgage payments (money that they could use to secure alternative, more affordable housing)
and face foreclosure anyway.

                                                29
Plainly, the goal that should be developed and tracked is how many permanent modifications
HAMP generates that help homeowners avoid foreclosure and stay in their homes. On that front,
a year into the program, although more than a million trial modifications have been initiated, the
number of conversions to active permanent modifications thus far, 168,708, has been, even
according to Treasury, “disappointing.” Indeed, a Treasury official’s estimate for how many
permanent modifications will result from HAMP — 1.5 to 2 million over the course of the four-
year program — is a small fraction of how many foreclosures are expected to occur during that
period. Approximately 2.8 million homeowners received foreclosure filings just in 2009, and
millions more are expected in 2010, with some estimates predicting that the number will eclipse
the already staggering 2009 number. It is the current estimated number of permanent
modifications, which would average between 500,000 and 667,000 permanent modifications in
the remaining three years of the program, and not Treasury’s still repeated 3 to 4 million figure,
that should inform the debate on whether HAMP is worth the considerable time and resources
that are being expended or whether the program needs to be revamped to actually help more at-
risk borrowers. Transparency and accountability demand that Treasury establishes goals that are
meaningful, and that it report its progress in meeting such meaningful goals on a monthly basis.
Continuing to frame HAMP’s success around the number of “offers” extended is simply not
sufficient.

Turning from goals to implementation, there are several reasons for the disappointing results thus
far, and the participants in the program have pointed fingers at one another: Treasury has
blamed the mortgage servicers for not doing enough to move borrowers into permanent
modifications; the servicers have blamed Treasury for a lack of guidance and ever-changing
program rules; and both Treasury and the servicers have blamed borrowers for failing to submit
required documentation in a timely manner. This audit, which focuses only on Treasury’s
performance, has identified several issues with Treasury’s implementation of HAMP that have
negatively affected HAMP’s success thus far:

Repeated changes to program guidelines caused confusion and delay. Treasury attempted to
rollout HAMP as fast as possible and made substantial progress in meeting its servicer
participation goals in a short period of time: the program was announced in February 2009; the
initial program guidelines were released in March 2009; and the first servicers signed agreements
in April 2009. Program rules had not been fully developed, however, by the time the program
began, and Treasury has had to revise guidelines repeatedly, often causing confusion and delay.
The rules relating to what documents are required to be submitted by borrowers, for example,
have been changed and/or clarified multiple times since the initial rules were released in March
2009, and the net present value test model and related guidance has been changed or clarified
nine times, prompting one servicer to estimate that the model changes doubled the amount of
time that it took to administer the test. Although Treasury’s desire to launch the program as soon
as possible was laudable, and some changes to a program as complex as HAMP are inevitable,
taking more time at the outset to adequately plan and test HAMP procedures, in the long run,
may have resulted in more permanent modifications faster, and with fewer complications, than
what has occurred.




                                               30
Permitting unverified verbal modifications was counterproductive. In July 2009, the
Administration set a target of reaching 500,000 trial modifications by November 2009, and
Treasury undertook several steps to speed up the pace of trial modifications to meet that target,
including expanding outreach efforts and pressuring servicers by publicly reporting results on a
servicer-by-servicer basis.

Although the trial modification target was reached as a result, it is now clear that permitting trial
modifications without document verification was a mistake that, among other things, has
contributed to the slow pace of converting trial modifications into permanent modifications since
then, and may have arguably caused actual harm to homeowners placed into trial modifications
that had no chance of becoming permanent. The resulting increase in trial modifications has
created a large backlog of trial modifications that includes many borrowers who may never
provide the required documentation. Servicers have reported that weeding out ineligible
borrowers amongst those who entered the program through verbal information is very resource
intensive, monopolizing scarce resources that could have been used to process the completed
written applications of eligible borrowers. Treasury has recognized this error and has changed
the rule for all trial modifications initiated after April 15, 2010.

Marketing efforts concerning HAMP have been limited. To date, Treasury has used three
primary methods to market HAMP to the public: an informational Web site, community
outreach events, and a telephone hotline. As program administrator, Fannie Mae also provides
an outreach toolkit with sample marketing materials on a Web site available to participating
servicers. Several limitations in the marketing efforts thus far have been identified:

   •   Servicers have indicated that more guidance was needed to develop HAMP marketing
       materials to better inform the public about the program, resulting thus far in a lack of a
       consistent message and confusion among some borrowers.

   •   Although Treasury does count the use of its marketing efforts — by tracking hits to its
       Web site, how many people come to its outreach events, and how many call its hotline —
       Treasury thus far has not tried to comprehensively gauge whether HAMP information is
       reaching its target audience (homeowners in trouble) effectively.

   •   Treasury does not collect any information regarding servicers’ marketing efforts and thus
       does not know whether the servicers are attempting to provide information to the
       borrowers they service and cannot ensure the integrity of information disseminated to the
       public about HAMP.

   •   It has taken Treasury more than a year to develop HAMP-specific unique public service
       announcements for television, the medium with arguably the best chance of reaching the
       broadest audience. Putting aside whether there are homeowners who could have been
       helped had knowledge of HAMP been broader, the lack of basic understanding about the
       program has sown confusion. If Treasury were to launch its own public service
       announcements, it would also provide another opportunity to educate the public about
       foreclosure rescue scams. In the context of a media world in which non-profit groups are
       able to get television advertisements on the air within days of a natural disaster, it is

                                                 31
       simply inexplicable that, when facing a tsunami-sized foreclosure crisis, Treasury has
       taken more than a year in a four-year program to simply develop — let alone broadcast
       — its own HAMP-specific television message to reach borrowers.

Re-defaults threaten the long-term success of the program. Even if HAMP results in the
estimated 1.5 to 2 million permanent modifications, the program will not be a long-term success
if large amounts of borrowers simply re-default and end up facing foreclosure anyway. Treasury
estimates that 40 percent of the mortgages that enter into HAMP modifications (trial and
permanent) will re-default during the program. Although, in the final analysis, it is up to the
policy makers in the Administration and Congress to determine whether it is worth spending tens
of billions of dollars of taxpayer funds on a program that is assumed at its outset to fail
ultimately for 40 percent of the participants, several aspects of HAMP’s design make it
particularly vulnerable to re-defaults:

   •   Debt-to-income ratios: HAMP reduces mortgage payments to what is deemed to be an
       affordable level, 31 percent of a borrower’s gross monthly income. In doing this
       calculation, however, the only debt HAMP servicers consider is mortgage debt — the
       borrower’s other debts (e.g., car payments, student loans, credit card obligations, and
       second liens on the home) are not factored into the calculation — and high total debt
       ratios will not exclude borrowers from participating in HAMP. Spending taxpayer
       resources to modify the mortgage payment of a borrower is of questionable value if the
       borrower will be unable to meet the mortgage payment anyway because of the burden of
       servicing other debts. Indeed, in certain circumstances such a borrower may be better off
       conserving funds by finding housing at a cost less than even the modified mortgage
       payment.

   •   Interest rate increases after modification period: Unlike a traditional fixed-rate mortgage,
       if the interest rate on a HAMP modification is adjusted to below prevailing market rates,
       after the five-year period of the program the rate can incrementally increase by up to one
       percent per year, capped at the 30-year conforming fixed rate on the day the modification
       agreement is drafted. Borrowers, however, may be unable to meet the increasing
       monthly payments once the interest rate begins to increase to current market rates if their
       income has not increased commensurate with the interest rate adjustments. Increasing
       interest rates, of course, were one of the early drivers of the current foreclosure crisis,
       particularly as interest rates on sub-prime adjustable rate mortgages reset requiring
       payments beyond what many borrowers could afford.

   •   Second liens: Treasury has estimated that up to 50 percent of mortgages at risk of
       delinquency and foreclosure are backed by second liens. Although borrowers may
       receive a HAMP permanent modification on their first lien, the total monthly mortgage
       payments might still be unaffordable if the second lien is not also modified or
       extinguished. Treasury has instituted a second lien program in which participating
       servicers must offer either to modify the borrower’s second lien according to a defined
       protocol or to accept a lump sum payment from Treasury in exchange for full
       extinguishment of the second lien. Participation to date has been extremely limited, but


                                                32
       with the recent signing of Bank of America, Wells Fargo, and JPMorgan Chase, it is
       improving.

   •   Negative equity and strategic defaults: HAMP does not require servicers to address
       negative equity (i.e., when the borrower owes more than the house is worth), which has
       been called by an industry expert the “most important predictor of default.” It is
       estimated that homeowners who have negative equity (currently constituting about 25
       percent of all borrowers nationwide) represent almost half of all foreclosures. In light of
       the amount of negative equity in the mortgages under trial modifications, resulting re-
       defaults, including strategic defaults, may be a factor as borrowers decide that it makes
       more economic sense for them to walk away from their mortgages, and rent at a lower
       cost, rather than continue to make payments that may never result in them obtaining
       equity in their home.


Recommendations
To improve the administration of HAMP, SIGTARP recommends that the Secretary of the
Treasury implement the following measures:

   •   Treasury needs to rectify the confusion that its own statements have caused with respect
       to its goals and expectations for HAMP. To permit informed debate on the program’s
       value and effectiveness thus far, Treasury must unambiguously and prominently disclose
       its goals and estimates (updated over time, as necessary) of how many homeowners will
       actually be helped through permanent modifications, and report monthly on its progress
       to meeting that goal.

   •   Beyond just measuring modifications, Treasury should develop other performance
       metrics to measure over time the implementation and success of HAMP. For example,
       Treasury could set goals and publicly report against those goals for servicer processing
       times, modifications as a proportion of a servicer’s loans in default, modifications as a
       proportion of foreclosures generally, rates of how many borrowers fall out of the program
       prior to permanent modification, and re-default rates. Having specific goals and metrics,
       and comparing performance against those goals, will be essential in further refining the
       program and measuring its success.

   •   Treasury should undertake a sustained public service campaign as soon as possible both
       to reach additional borrowers that could potentially be helped by the program and to arm
       the public with complete, accurate information about the program to avoid confusion and
       delay, and to prevent fraud and abuse.

   •   Treasury should reconsider its position that allows servicers to substitute alternative
       forms of income verification based on the subjective determination by the servicer, such
       as whether such documents are “appropriate” or relying on the servicer’s “good business
       judgment consistent with the judgment employed when modifying mortgage loans held
       under their own portfolio.” Although we certainly understand Treasury’s desire to speed

                                                33
       up conversions from trial modifications into permanent modifications, this provision is
       problematic. It will be very difficult to determine from a compliance and oversight
       perspective whether the rule is followed: to determine whether a borrower was admitted
       into a permanent modification appropriately under this provision, a compliance or
       oversight body will need to figure out what documents a particular servicer’s own
       proprietary modification system would require under the circumstances and then, given
       that system, whether acceptance of the alternative documents constitutes good business
       judgment under that system. Furthermore, because servicers have both an economic and
       reputational incentive to convert as many trial modifications to permanent modifications
       as possible, this provision seriously risks being the exception that devours the rule, with
       servicers applying loose underwriting standards to generate higher conversion rates,
       which could result in waste from taxpayer-funded modifications that will eventually re-
       default. If Treasury believes that it is appropriate to expand the forms of income
       verification that it will deem acceptable, it should do so in an open and transparent
       manner rather than simply deferring to the servicers.

   •   Treasury should re-examine the program’s structure to ensure that the program is
       adequately minimizing the risk of re-default. If HAMP ends up being a foreclosure
       mitigation program that merely delays foreclosures rather than preventing them, the
       program will be of questionable value, particularly in light of the huge investment of
       taxpayer funds. A program that helps borrowers permanently avoid foreclosure is
       preferable (and far less wasteful of tax dollars) to one that merely kicks the proverbial
       foreclosure can down the road. The program as currently constituted may not adequately
       address the risk of re-defaults stemming from non-mortgage debt, from second liens on
       the property, from the partial interest rate resets after the five-year modifications end, and
       from the fact that many of the borrowers are hopelessly underwater with little hope of
       ever building equity in the home.

In sum, one year into HAMP, although Treasury has done a considerable amount of work and
made progress in establishing the administrative framework of the program, Treasury must
promptly address the issues raised in this report; failure to do so could result in a lost opportunity
to make sure that the TARP program that was specifically intended to benefit Main Street, as
well as Wall Street, succeeds. Absent a thorough review of HAMP and its goals, the program
risks helping few, and for the rest, merely spreading out the foreclosure crisis over the course of
several years, at significant taxpayer expense and even at the expense of those borrowers who
continued to struggle to make modified, but still unaffordable, mortgage payments for months
more before succumbing to foreclosure anyway. While such spreading out of the pain may in
some circumstances benefit the lender/investors (who may not have to immediately recognize
losses that could accompany additional immediate foreclosures), it will have done little to
accomplish EESA’s explicit purpose to “help families keep their homes.”




                                                 34
Management Comments and Audit Response

In its management response, which is reproduced in full in Appendix F, Treasury generally
concurs with and indicates that it is working towards implementing SIGTARP’s
recommendations concerning the need for Treasury to (a) disclose its goals and estimates for
how many homeowners will be helped through permanent modifications, (b) develop goals for
other performance metrics to measure HAMP implementation and success, and (c) undertake a
sustained public service campaign.

Treasury disagrees with SIGTARP’s two other recommendations. First, with respect to
SIGTARP’s recommendation that Treasury reconsider its decision to allow servicers to
substitute alternative forms of income verification, for the reasons stated in the report, SIGTARP
continues to submit that verification of a requirement as central to HAMP as a borrower’s
income should be explicit and uniform. Accordingly, SIGTARP stands by this recommendation.

Treasury also disagrees with SIGTARP’s recommendation that it should re-examine the
program’s structure to ensure that the program is adequately minimizing the risk of re-default.
Although Treasury acknowledges that “there are alternative structures that could lower re-default
rates,” it asserts that the recommendation fails to acknowledge that these alternatives might limit
the total number of participants in the program or could result in increasing program costs.
Ultimately, if the program is plagued by high re-default rates, it will have done little to achieve
the goal of assisting homeowners who would still find themselves losing their homes after an
unsuccessful short-term modification. In light of the significant costs of re-default — both in
terms of devoting taxpayer funds merely to delay foreclosure and in terms of potential harm to
homeowners — in the final analysis, SIGTARP continues to believe that only through
maximizing the number of sustainable permanent modifications can Treasury meet its originally
stated intention to enable “homeowners to modify the terms of their mortgage to avoid
foreclosure” and therefore “reduc[e] monthly payments to sustainable levels.” In other words, a
modification program that begins with a smaller gross number of total modifications but that
results in lasting relief for a vast majority of those homeowners would be preferable to a program
that starts with a higher total number of modifications upfront, but through re-defaults, ends up
with fewer people being helped over the long term. As to cost, although SIGTARP does not take
any position with respect to Treasury’s policy determination to allocate $50 billion of taxpayer
funds for HAMP, it is worth noting that a recent Congressional Budget Office report estimated
that no more than $20 billion of these funds will be spent on HAMP payments. Treasury thus
may well have the resources to change the program in a manner that will result in more
sustainable modifications and still be below its planned allocation.

SIGTARP continues to recommend that Treasury should re-examine the program’s structure to
assure that it adequately minimizes the risk of re-default.




                                                35
Appendix A—Scope and Methodology
We performed the audit under authority of Public Law 110-343, as amended, which also
incorporates the duties and responsibilities of inspectors general under the Inspector General Act
of 1978, as amended. The audit reports on the status of HAMP and specifically addresses the
following objectives:

   •   What is the status of HAMP, and has the program met its goals for participation thus far?

   •   What challenges have confronted and continue to confront Treasury in implementing the
       program?

Our audit was completed during July 2009 to March 2010. The scope covered HAMP activities
implemented between March 2009 and February 2010 with particular focus on the first-lien
program.

We conducted our work at the Treasury Offices of Financial Stability and Domestic Finance in
Washington D.C.; Fannie Mae’s Washington, D.C. headquarters; Freddie Mac’s McLean,
Virginia headquarters; and five mortgage servicers. The sample of five servicers was
judgmentally selected based on HAMP participation status for privately-owned mortgages,
volume of SIGTARP Hotline complaints, HAMP cap allocation amount, and geographic
location. Four of the servicers had signed a HAMP servicer participation agreement and one
servicer had not. The unpaid principal balance of participating servicers’ servicing portfolio was
not available during our audit planning, and was therefore not included as a sampling criterion.
Site visits to the servicers occurred from September 2009 through October 2009. We also
conducted work at the Homeowner’s HOPE hotline in Lock Haven, Pennsylvania, and attended
borrower outreach events in Chicago, Illinois, and Woodbridge, Virginia, which were sponsored
by Treasury, Fannie Mae, or Hope Now.

To assess the status and challenges confronting HAMP as well as Treasury’s plans to address
existing challenges, we interviewed Treasury officials from the Offices of Financial Stability and
Domestic Finance and GSE officials who were involved in the policy decision-making process,
including interim and permanent Chief Homeownership Preservation Officers and Fannie Mae’s
and Freddie Mac’s Chief Executive Officers. We also discussed the status and challenges
confronting HAMP with Federal Housing Finance Agency officials, as well as mortgage
servicing industry experts. We interviewed servicer officials and observed the loss mitigation,
collections, and HAMP operations departments at the five servicers we visited. We reviewed
modification policies and procedures developed by Treasury, GSEs, and servicers, as well as
reports and testimonies by Government Accountability Office, the Congressional Oversight
Panel, the Office of the Comptroller for the Currency, the Office of Thrift Supervision, and
industry groups. We reviewed mortgage modification complaints received through the
SIGTARP Hotline. We also evaluated Treasury’s weekly and monthly HAMP status reports and
other HAMP data reports produced by Fannie Mae. To determine the extent that trial

                                                36
modifications resulted in changes to interest rates, amortization terms, and mortgage payments,
we reviewed all active trial modifications in the HAMP system of record as of November 5,
2009, for the four servicers we visited which were modifying privately-owned mortgages for
HAMP at that time.

To assess the methods Treasury used to market HAMP, we analyzed and assessed the Office of
Financial Stability’s (“OFS”) HAMP marketing and outreach strategy against the nine key
practices for developing a consumer education campaign compiled by GAO. 29 We spoke with
officials within the marketing teams at OFS and Fannie Mae to learn their roles and
responsibilities, and we examined HAMP marketing policies, procedures, and budgets. In
addition, we reviewed Fannie Mae’s financial agency agreement to identify any specific
marketing responsibilities the GSE was assigned as part of its role as HAMP program
administrator. During visits with five servicers, we interviewed officials to determine the extent
to which Treasury issued policies, procedures, and other guidance to assist them in developing
their HAMP marketing materials. We also reviewed samples of the servicers’ marketing
materials, such as letters and pamphlets, and asked officials about the extent to which Treasury
or Fannie Mae had reviewed such materials to determine the level of governance associated with
ensuring the accuracy of information disseminated to the public. We reviewed Treasury’s
HAMP website (www.makinghomeaffordable.gov) and 71 participating servicers’ Web sites to
assess the amount of information provided to borrowers about HAMP as well as to identify best
practices or inconsistencies among the information provided. In addition, we interviewed
Homeowner’s HOPE hotline officials, listened to hotline recorded calls, and obtained those
officials’ reviews of the operators’ handling of the calls. At the borrower outreach events in
Illinois and Virginia, we observed the proceedings and the processing of individual borrowers
and evaluated the material presented to borrowers by the sponsors, servicers, and non-profit
counselors. We also attended a Treasury-sponsored event that educated and addressed concerns
of housing counselors and community officials about HAMP.

This performance audit was performed in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Use of Computer-Processed Data
To perform this audit, we used unaudited data provided by Treasury to report on the status of trial
and official modifications. Treasury produces this information based upon data servicers report
to the Investor Reporting 2 database — a transaction mortgage servicing system — which is
maintained by Fannie Mae. The extent to which we captured the full universe of HAMP
modifications, whether in trial period or official status, is subject to the completeness and
accuracy of Investor Reporting 2.



29
     GAO-08-43, “Digital Television Transition: Increased Federal Planning and Risk Management Could Further
     Facilitate the DTV Transition,” 11/2007, p. 26-26, 40-43.

                                                        37
Internal Controls
SIGTARP will release a mutually exclusive audit report addressing the adequacy of HAMP
internal controls later this year. Our report will address several internal control objectives,
including the state of the HAMP control environment and the extent to which conflicts of interest
may exist across responsible program parties. In addition, the report will examine the reliability
of program data, as we previously stated its completeness and accuracy require further review.

Prior Coverage
Congressional Oversight Panel, “Foreclosure Crisis: Working Toward a Solution,” March 6,
2009

Congressional Oversight Panel, “An Assessment of Foreclosure Mitigation Efforts after Six
Months,” October 9, 2009

Congressional Oversight Panel, “Taking Stock: What has the Troubled Asset Relief Program
Achieved?,” December 9, 2009

Government Accountability Office, Report No. 09-837, “Treasury Actions Needed to Make the
Home Affordable Modification Program More Transparent and Accountable,” July 23, 2009

Government Accountability Office, Report No. 10-16, “One Year Later, Actions are needed to
Address Remaining Transparency and Accountability Challenges,” October 8, 2009

Government Accountability Office, Report No. 10-301, “Office of Financial Stability (Troubled
Asset Relief Program) Fiscal Year 2009 Financial Statements,” December 9, 2009




                                               38
Appendix B—HAMP Stakeholders
Several entities work with Treasury to implement HAMP. Treasury has engaged the GSEs and
Bank of New York Mellon as financial agents to carry out specific program tasks. Servicers
execute the modifications. Other government housing authorities and the Homeowner
Preservation Foundation also have a role in HAMP. See the following descriptions of key
HAMP stakeholders’ roles and responsibilities.

Treasury
Treasury’s Domestic Finance and the OFS are the primary Treasury offices that developed
Making Home Affordable. OFS created the Homeownership Preservation Office in November
2008, and this office serves as the Making Home Affordable Program office. The
Homeownership Preservation Office is responsible solely, or in conjunction with other OFS
offices, for the following program functions:

   •   Audit oversight

   •   Congressional and regulatory liaison

   •   Data analysis

   •   Establishing policies in conjunction with other Treasury departments and the GSEs

   •   Communicating and marketing the program (performed in conjunction with Fannie Mae),
       including maintaining the www.makinghomeaffordable.gov website

   •   Oversight of program compliance and fraud prevention (performed in conjunction with
       Freddie Mac)

Fannie Mae

Fannie Mae was selected to be the Program Administrator for all programs under the
Homeownership Preservation Office and signed a Financial Agency Agreement with Treasury
on February 18, 2009. This agreement details Fannie Mae’s roles, responsibilities, and basis for
compensation. As the program administrator, Fannie Mae has been tasked with assisting with
creating program policies, developing a marketing plan, developing the net present value model
under Treasury direction, maintaining the program system of record, preparing and producing
program management reports, developing a servicer integration team to provide on-going
assistance to all servicers, and integrating servicers that are new HAMP participants.




                                               39
Freddie Mac
Freddie Mac was selected as the HAMP compliance agent to ensure servicers are following
program guidelines, and a Freddie Mac official signed a Financial Agency Agreement with
Treasury on February 18, 2009. This agreement details Freddie Mac’s roles, responsibilities, and
basis for compensation. Freddie Mac established a separate group of employees, named the
Making Home Affordable compliance team, that are firewalled30 from the rest of Freddie Mac’s
organization. The compliance team assesses all institutions that signed a HAMP servicer
participation agreement on a quarterly basis, and new data is monitored on a monthly basis.

Making Home Affordable compliance has plans to conduct announced and unannounced site
visits to the servicers. Making Home Affordable compliance employs loan file and management
control reviews, as well as on-site and off-site procedures to review servicers’ compliance.
When new servicers sign a participation agreement, Freddie Mac attempts to visit them for a
“readiness” review. Freddie Mac has reviewed 11 servicers as of January 2010, which represents
16 different servicing platforms. 31 Freddie Mac also publishes additional HAMP guidance to
servicers for the Freddie Mac portion of GSE loans that are modified.

Bank of New York Mellon
Treasury selected Bank of New York Mellon in October 2008 to serve as its primary agent for
custodial, accounting and auction management for TARP. With respect to HAMP, it is
responsible for processing and distributing the program’s incentive payments to the participating
servicers.

Mortgage Servicers
All servicers of GSE loans are required to evaluate those mortgages under HAMP. In order to
modify privately-owned mortgages and receive incentive payments, a servicer must sign a
Servicer Participation Agreement. Servicers contact borrowers who may be eligible for HAMP,
and borrowers may also contact their servicer if they meet general eligibility requirements.
Servicers report HAMP modifications in the program’s system of record, Investor Reporting 2
database, created by Fannie Mae.

Federal Housing Finance Agency
The Federal Housing Finance Agency serves as the regulator and conservator of the GSEs and
has oversight of GSE loans that are eligible for HAMP. The Federal Housing Finance Agency
provides feedback for policy changes to Fannie Mae and Freddie Mac in their parallel
modification programs.

30
   Firewalls, in this context, are organizational controls intended to minimize conflicts of interest for employees with
   certain sensitive program knowledge.
31
   Servicing platforms means each servicing entity's book of business, including legacy servicing portfolios of
   acquired companies (e.g., Wells Fargo would count as multiple platforms due to the inclusion of Wachovia and
   other acquired entities).

                                                          40
U.S. Department of Housing and Urban Development
The U.S. Department of Housing and Urban Development has formed a partnership with HAMP,
providing free housing counselors across the United States that can assist borrowers in avoiding
foreclosures. Federal Housing Authority is an agency that exists as part of the Department.
Federal Housing Authority has helped keep families in their home through loss mitigation
practices such as deed-in-lieu, loan modifications, pre-foreclosure sales, and forbearance, among
other practices throughout the United States.

Homeownership Preservation Foundation
The Homeownership Preservation Foundation’s mission is to develop innovative solutions for
preserving and expanding homeownership through consumer education and counseling
programs. The Foundation created the Homeowner’s HOPE Hotline in 2004, and Fannie Mae,
on behalf of Treasury, contracted with the Foundation for the Homeowner’s HOPE Hotline to
become HAMP’s central telephone tool. The Making Home Affordable call center launched on
June 22, 2009, and intends to increase foreclosure prevention awareness, educate homeowners
about their options and guide them to an optimal solution, and drive homeowners to obtain either
refinance, obtain a modification, or seek financial counseling.




                                               41
Appendix C—Net Present Value Test Guidance

Changes and Clarifications in Treasury’s Guidance on Its Net Present Value
Model Parameters and Reporting

Date            Change Description
March 4, 2009   Treasury issues guidelines that introduce its net present value model and explain how the
                model should be used to evaluate borrowers requesting a HAMP modification. This net present
                value test is supposed to compare the net present value of cash flows expected from a
                modification to the net present value of cash flows expected in the absence of a modification. If
                the net present value of the modification scenario is greater than the net present value of no
                modification, the net present value result is deemed positive. If the net present value test
                generates a positive result, the servicer is required to offer a mortgage modification to the
                borrower. If the test generates a negative result, modification is optional.

                The following model parameters were introduced:

                •   The program allows the servicer to choose the discount rate — the rate that determines the
                    value of future payments compared to payments received today — to use in the net
                    present value model, subject to a program-determined ceiling that will be sensitive to the
                    market-determined cost of funds.

                •   The cure rates — to cure a mortgage in default is to pay all the back payments, interest,
                    and legal fees — and re-default rates are to be obtained from a default equation with
                    parameters based on Fannie Mae and Freddie Mac analytics and program portfolio data,
                    except where servicers use custom parameters.

                •   Property value is to be determined in accordance with the guidelines.

                •   The remaining parameters — home price forecast, valuation of the house price
                    depreciation reserve, foreclosure timelines, foreclosure costs, and real-estate owned
                    stigma — is to come from data sets held or produced by the Federal Housing Finance
                    Agency.

                •   Servicers having at least a $40 billion servicing book have an option to substitute a set of
                    cure rates and re-default rates estimated based on the experience of their own aggregate
                    portfolios.

                Additional parameters and further details of the model components for the net present value
                test beyond those discussed above were published separately.
April 6, 2009   The Supplemental Directive clarifies the options for borrowers with negative net present value
                model results and standards for retaining model documentation. It also states that Fannie Mae
                has developed a software application for servicers to submit loan files to the net present value
                calculator. Also, servicers having at least a $40 billion servicing book — dollar value of
                mortgages the servicer is managing — have the option to create a version of the net present
                value model that uses a set of cure rates and re-default rates estimated based on the
                experience of their own portfolios and that guidance on required inputs for custom net present
                value calculations will be forthcoming.

                Treasury requires servicers to maintain detailed documentation of the net present value model,
                all net present value inputs and assumptions, and the net present value results each time they
                run the test, regardless of whether the mortgage is modified.
June 11, 2009   Treasury issues updated guidelines that further explain the following key net present value
                model parameters presented previously in the March 4th guidelines.

                                                  42
                 •   Discount rate – All servicers are permitted limited discretion to adjust the discount rate by
                     up to 250 basis points. The discount rate may be as low as Freddie Mac’s Primary
                     Mortgage Market Survey weekly rate for 30-year fixed rate conforming loans. In no case
                     may a servicer use a higher discount rate for loans in its own portfolio than the rate used
                     for loans it services for other investors. With respect to loans owned or guaranteed by
                     Fannie Mae or Freddie Mac, the servicer is to apply the rate specified in Fannie Mae and
                     Freddie Mac guidance.

                 •   Default rate – The model projects the probability of default if the loan is not modified and
                     the probability of default if the loan is modified. As HAMP performance data becomes
                     available, the model is to be updated to reflect actual program experience. Large servicers
                     — those with a book exceeding $40 billion — may customize the base model to use
                     modeled default rates that reflect their own portfolio experience.

                 •   Home prices – A servicer must use the base model’s home price projection, made
                     available by the Federal Housing Finance Agency exclusively for this program and is
                     based on data from a broad cross-section of mortgage transactions that is to be updated
                     quarterly.

                 •   Foreclosed or real-estate owned discount – The real-estate owned discount recognizes the
                     deterioration in perceived value that buyers often place on a home that has been
                     foreclosed.
           a
July 9, 2009     Fannie Mae outlines the following enhancements under development based on servicer
                 feedback on version 1 of the net present value model.

                 •   Metropolitan statistical area level home price projection – Fannie Mae simplifies the AR2
                     model developed for the Treasury to use in version 2 of the net present value model and
                     allows flexibility for other servicers to use other indices (e.g., Moody’s, Case Shiller, etc.).

                 •   More granular real-estate owned discount – Fannie Mae clarifies the real-estate owned
                     discount by using the current discount for automated valuation model values — a 75
                     percent discount for external broker price opinions/appraisals and a 25 percent discount for
                     internal broker price opinions/appraisals.

                 •   Prepayment model – Fannie Mae proposes a prepayment model that considers variables
                     such as the change in modification rate versus the market rate, mark-to-market loan-to-
                     value, and loan status. Fannie Mae further notes that relevant modification data to
                     calibrate the prepayment model are yet not available.

                 •    Home price decline protection payment – Fannie Mae provides final rules about home
                      price decline protection payment for version 2 of the net present value model.
July 31, 2009    Treasury issues Supplemental Directive 09-04, which introduces the home price decline
                 protection program, an initiative designed to encourage modification of loans in markets
                 hardest hit by falling home prices. The Supplement Directive adds the home price decline
                 protection incentive payment as an input to the net present value model and informed the
                 servicers that the details are to be made available in early August 2009. Servicers that
                 integrated the base net present value model into their systems or customize the model in
                 accordance with program requirements are responsible for ensuring that they incorporate the
                 required home price decline protection determination functionality into their version of the net
                 present value model.

                 Also, the Supplemental Directive informs the servicers that specific details regarding the use of
                 the home price decline protection incentive payment in the net present value model is to be
                 provided in the documentation for version 3 of the model.
August 7, 2009   Treasury issues guidance that makes significant changes from version 2 to version 3 of the net
                 present value model:

                 •   Home price decline protection incentive – The home price decline protection incentive is to
                     be effective beginning September 1, 2009. (Supplemental Directive 09-04 contains the
                     detailed policy guidelines for the Home Price Decline Protection Program.)


                                                     43
                      •   Prepayment model – The guidance adjusts coefficients for the prepayment model and the
                          refinance incentive value bounds.

                      •   Model versioning requirements –Servicers are required to use the same major model
                          version, related supplement data, and the Freddie Mac Primary Mortgage Market Survey
                          weekly rate for the initial model run in subsequent model results.

                      •   Test consistency requirements –Servicers are required to use borrower and loan
                          information that was initially reported correctly to determine subsequent model results.

                      •   Term extension – Loans with current remaining terms greater than 480 months should skip
                          the term extension step. Amortization term after modification should equal the remaining
                          term. Re-amortize and extend the loan to a maximum 40-year term in monthly increments
                          to reach as close to the target 31 percent debt-to-income without going under.

                      •   De-seasonalized home price index – Beginning the third quarter of 2009, the home price
                          index is to be adjusted to remove the seasonal affects of home prices and reduce the
                          index’s impact on the home price decline protection payment.

                      Also, Treasury’s guidance clarifies the documentation required from version 2 to version 3 of
                      the net present value model. For example

                      •   Escrow shortage – Servicers are to include any future monthly escrow shortage payments
                          to the “Association Dues/Fees Before Modification” field.

                      •   Adjustable-rate mortgage/interest-only reset or recast – For adjustable-rate
                          mortgage/Interest-only recast that is to happen within the next four months, front-end debt-
                          to-income is to be calculated using principal, interest, taxes, insurance, homeowners’
                          association, and/or condominium fees based on the greater of the “Principal and Interest
                          Payment before Modification” input field and the fully amortizing payment.

                      • Timing of the investor incentive and government subsidy incentive in the equations for the
                        modification cure and default cash flows – The investor incentive payment for the trial
                        period is to be made in period 3, and the three government subsidy payments for the trial
                        period are to remain in period 4.
September 11, 2009 Treasury issues Supplemental Directive 09-06, which outlines data collection and reporting
                   requirements for the net present value model. The Supplement Directive requires servicers to
                   report loan-level data starting in October 2009 to Fannie Mae for mortgages evaluated for
                   HAMP, including the net present value model type code and 43 other model inputs.
November 3, 2009   Treasury issues Supplemental Directive 09-08, which requires services who receive a borrower
                   request within 30 calendar days from the date of notifying the borrower their loan has a
                   negative net present value model result to provide the borrower with the date of the net present
                   value calculation and with select input values. If, within 30 calendar days of receiving this
                   information the borrower provides the servicer with evidence that any of these input values are
                   inaccurate and those inaccuracies are material, the servicer is to conduct a new net present
                   value evaluation.
November 30,       Treasury issues Supplemental Directive 09-09, which provides guidance to servicers for the
2009               adoption and implementation of the Home Affordable Foreclosure Alternatives Program. The
                   Home Affordable Foreclosure Alternatives Program — a part of HAMP — provides financial
                   incentives to servicers and borrowers who utilize a short sale or a deed-in-lieu to avoid a
                   foreclosure on an eligible mortgage. The Supplemental Directive states that the HAMP net
                   present value model should not be used to project investor cash flows from either a short sale
                   or deed-in-lieu and should be used only to determine borrower eligibility for a HAMP mortgage
                   modification.
January 28, 2010   Treasury issued Supplemental Directive 10-01, which makes the following changes to the net
                   present value model and the use of the model results:

                      •   A borrower who has been evaluated for HAMP but does not meet the minimum eligibility
                          criteria described in Supplemental Directive 09-01 or who meets the minimum eligibility
                          criteria but is not qualified for HAMP by virtue of a negative net present value result,

                                                        44
                              excessive forbearance or other financial reason, may request reconsideration for HAMP at
                              a future time if they experience a change in circumstance.

                         •    In the event a servicer elects to forbear principal in an amount resulting in a modified
                              interest-bearing balance that would create a current mark-to-market loan-to-value ratio less
                              than 100 percent in negative net present value situations, the servicer is to ignore the error
                              code and the flag for excessive forbearance that is returned by the net present value
                              model. Updates are to be made to the model in the future to eliminate this error code.

                         •    Servicers are to re-evaluate a loan using the net present value model if the borrower’s
                              documented income differs from the stated income used in the borrower’s initial qualifying
                              net present value test. With respect to trial modifications after April 15, 2010, servicers
                              may elect to offer the borrower a permanent modification without performing an additional
                              net present value evaluation based on the borrower’s verified income documentation. If
                              the servicer elects not to perform an additional net present value evaluation in this
                              situation, the servicer is to enter the trial period date and values for the model results when
                              reporting to the HAMP system of record.
Note a: Because official guidance for these changes is not posted to the HAMP servicer website, this information on the net present
        value model is based on a July 9, 2009, Fannie Mae presentation.

Source: SIGTARP analysis of Treasury’s and Fannie Mae’s data.




                                                                45
Appendix D—Acronyms
Acronym       Definition

EESA          Emergency Economic Stabilization Act of 2008
GSE           Government-sponsored enterprise
Fannie Mae    Federal National Mortgage Association
Freddie Mac   Federal Home Loan Mortgage Corporation
HAMP          Home Affordable Modification Program
HUD           Department of Housing and Urban Development
MHA           Making Home Affordable
OFS           Office of Financial Stability
SIGTARP       Special Inspector General for the Troubled Asset Relief Program
TARP          Troubled Asset Relief Program
Treasury      Department of the Treasury




                                               46
Appendix E—Audit Team Members
This report was prepared and the review was conducted under the direction of Kurt Hyde,
Deputy Special Inspector General, Office of the Special Inspector General for the Troubled Asset
Relief Program.

The staff members who conducted the audit and contributed to the report include:

Shawn Cornell

Alisa Davis

Mark Little

Andrew Lopresti

Philip Mastandrea

Amanda Seese




                                              47
Appendix F—Treasury’s Comments




                   48
49
50
51
52
53
                                         Draft Report
                                     For Official Use Only
SIGTARP Hotline
If you are aware of fraud, waste, abuse, mismanagement, or misrepresentations associated with the
Troubled Asset Relief Program, please contact the SIGTARP Hotline.

By Online Form:
          Form www.SIGTARP.gov                 By Phone: Call toll free: (877) SIG-2009

By Fax: (202) 622-4559

By Mail:                 Hotline: Office of the Special Inspector General
                         for the Troubled Asset Relief Program
                         1801 L Street., NW, 4th Floor
                         Washington, D.C. 20220


Press Inquiries
If you have any inquiries, please contact our Press Office:
                                                              Kristine Belisle
                                                              Director of Communications
                                                              Kris.Belisle@do.treas.gov
                                                              202-927-8940

Legislative Affairs
For Congressional inquiries, please contact our Legislative Affairs Office:
                                                               Lori Hayman
                                                               Legislative Affairs
                                                               Lori.Hayman@do.treas.gov
                                                               202-927-8941

Obtaining Copies of Testimony and Reports
To obtain copies of testimony and reports, please log on to our website at www.sigtarp.gov. 
